tv"

V-f

IN THE
SUPREME COURT OF THE UNITED STATES
No.
DANIEL TWIAN BROWN
Petitioner,
V.
ADMINISTRATOR NEW JERSEY STATE PRISON, et al.
Respondent.

APPENDIX TO PETITION FOR A WRIT OF
CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT

Submitted By:
Daniel Twian Brown #56381/979139B
New Jersey State Prison
P.0. Box 861
Trenton, New Jersey 08625

i

t

.-4*

INDEX TO APPENDIX

Opinion of the United States District Court for the District
of New Jersey Dated August 6, 2019

Pa-1)

Order of the United States Court Of Appeals for the Third
Circuit Dated January 28, 2020.........................................................

Pa-51)

Order of the United States Court Of Appeals for the Third
Circuit Dated July 27, 2020...............................................................

Pa-52)

2

U*

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 1 of 50 PagelD: 3134

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY

HON. JOHN MICHAEL VAZQUEZ

DANIEL TWIAN BROWN,
Petitioner,

Civil Action
No. .16-6066 (JMV)

v.
STEVEN JOHNSON, et al,

OPINION
Respondents.

VAZQUEZ, District Judge:
I.

INTRODUCTION
Presently before the Court is the petition pursuant to 28 U.S.C. § 2254 (“the Petition”)

(ECF No. .1) of Daniel Twian Brown. Petitioner is currently incarcerated-in New-Jersey State
Prison in Trenton, New Jersey. (ECF No. 1-1 at 20.) Following a forty-three count indictment
(ECF No. 1-8); a trial on robbery, burglary, firearm possession, assault, and related charges (ECF
No. 1-52); and re-sentencing (ECF Nos. 1-9 and 1-25), Petitioner is serving a sentence, in the
aggregate, of a life term of imprisonment with a consecutive forty-one year term subject to an
eighty-five percent parole ineligibility. State v. Brown, No. A-2374-12T3, 2014 WL 88089.13, at
*1 (N.J. Super. Ct. App. Div. May 13, 2015); ECF No. 1-1 at 132; ECF No. 1-25.
For the reasons stated herein, the Court denies the Petition on the merits with prejudice.
i

No certificate of appealability shall issue.
II.

BACKGROUND
A grand jury indicted Petitioner on forty separate criminal counts, including robbery,

firearm possession, and resisting arrest regarding six armed robberies over less than a one-week
period. State v. Brown, 2009 WL 2408568, at *1 (N.J. Super. Ct. App. Div. Aug. 7, 2009). On
/
r

/ V'

r
V

\

\
i

<D

I vT- V

/•:

*Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 2 of 50 PagelD: 3135

June 9, 2006, a jury convicted Petitioner of six counts of first-degree armed robbery; three counts
of third-degree theft; nine counts of second-degree possession of a weapon for an unlawful
purpose; six counts of third-degree unlawful possession of a rifle; three counts of third-degree
possession of a handgun without a permit; one count of second-degree armed burglary; one count
of third-degree aggravated assault; one count .of second-degree eluding; two counts of fourthdegree resisting arrest; and two counts of second-degree possession of a weapon by a convicted
felon. Brown, 2014 WL 8808913, at *1. Between December 28, 2004 and January 1, 2005,
Petitioner and other assailants committed these crimes at various locations, including four gas
stations, a convenience store, and a catering truck in a parking lot. Petitioner also stole three
vehicles. Following his arrest, Petitioner confessed to all of the crimes, with the exception of the
robbery of the catering truck. Id. On September 26, 2006, the state court granted the State’s
motions for a discretionary extended term and to impose consecutive sentences for some of the
offenses. The court sentenced Petitioner, in the aggregate, to life imprisonment, with ninety-three
years, eight months and 106 days of parole ineligibility. Id.
Petitioner filed a direct appeal. On August 7, 2009, the Appellate Division of the Superior
Court of New Jersey (“Appellate Division”) reversed the convictions related to the unlawful
possession of a rifle but affirmed all other convictions. Brown, 2009 WL 2408568, at *22. The
Appellate Division also vacated the sentence imposed on two second-degree robbery convictions
because the sentences were greater than the range permitted under N.J. Stat. Ann. § 2C:43-6(a)(2);
and the sentencing judge failed to make sufficient findings in support of the aggravating, mitigating
and Yarbough factors.1 Brown, 2009 WL 2408568, at *2. The New Jersey Supreme Court granted

1 In State v. Yarbough, 498 A.2d 1239 (N.J. 1985), cert, denied, 475 U.S. 1014 (1986), the court
set forth the factors to be considered when deciding whether to impose consecutive or concurrent
sentences. The Yarbough factors essentially focus upon “the nature and number of offenses for
2

/;

^Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 3 of 50 Page!D: 3136

Petitioner’s petition for certification. State v. Brown, 988 A.2d 1177 (N.J. 2010). The Court
affirmed and modified the Appellate Division’s judgment, and it remanded for resentencing. State
v. Brown, 14 A.3d 26,35 (N.J. 2011). On September 9,2011, the trial court re-sentenced Petitioner
to the same aggregate term. Brown, 2014 WL 8808913, at *1; ECF No. 1-25.
On March 18, 2011, Petitioner filed a PCR petition. Id;, ECF No. 1-24 at 5. The court
denied PCR on August 30, 2012. Brown, 2014 WL 8808913, at *1; ECF No. 1-24 at 1-11. On May
13, 2015, the Appellate Division affirmed denial of PCR. Brown, 2014 WL 8808913, at *1.
Petitioner filed his habeas Petition on September 29, 2016, asserting the following seven
grounds2: (1) unconstitutionally warrantless arrest (ECF No. 1-1 at 58-67); (2) violation of
Petitioner’s Fourth, Fifth, and Fourteenth Amendment rights when the trial court failed to suppress
the statements he made after his warrantless arrest and the warrantless search of his-girlfriend’s
apartment (id. at 67-78); (3) IAC by trial counsel (id. at 85-115); (4) IAC by appellate counsel (id.
at 115-23); (5) imposition of unconstitutionally cruel and unusual punishment (id. at-123-J3); (6)
violation of Petitioner’s Sixth Amendment and due process rights when the trial court refused him
headphones to hear sidebars (id. at 133-34); and (7) cumulative errors. (Id. at 135.) On November
7, 2016, this Court ordered Respondents to answer the Petition (ECF No. 3), which they filed on
February 20, 2017. (ECF No. 7.)

which the defendant is being sentenced, whether the offenses occurred at different times or
places, and whether they involve numerous or separate victims. State v. Carey, 775 A.2d 495
(N.J. 2001) (quoting State v. Baylass, 553 A.2d 326 (N.J. 1989)).
2 The Petition refers to four grounds but does not expressly set forth the basis for any of them.
(ECF No. 1 at 6, 8, 9 and 11.) Rather, the Petition directs: “See Memorandum of Law.” (Id.) This
Court construes-the Petition’s supporting Memorandum to assert seven grounds for relief. (See
ECF No. 1-1 at 2-5.) The Court agrees with Respondents (see ECF No. 7 at 10-11) that some of
Petitioner’s ineffective assistance of counsel (“IAC”) allegations (see ECF No. 1-1 at 78-84)
purport merely to set forth the legal standard for IAC claims.
3

/w h, -

4

^Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 4 of 50 PagelD: 3-137

III.

STANDARD OF REVIEW
Section 2254(a) permits a court to entertain only claims alleging that a person is in state

custody “in violation of the Constitution or laws or treaties of the United States.” 28 U.S.C. §
2254(a). Petitioner has the burden of establishing each of his claims. See Eley v. Erickson, 712
F.3d 837, 846 (3d Cir. 2013). Under 28 U.S.C. § 2254, as amended by the Anti-Terrorism and
Effective Death Penalty Act, 28 U.S.C. § 2244 (“AEDPA”), federal courts in habeas corpus cases
must give considerable deference to determinations of the state trial and appellate courts. See
Renico v. Lett, 599 U.S. 766, 772 (2010).
28 U.S.C. § 2254(d) provides as follows:
(d) An application for a- writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not be
granted with respect to any claim that was adjudicated on the merits
in State court proceedings unless the adjudication of the claim —
(1) resulted in a decision that was contrary to, or involved an.
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.
Where a state court adjudicated petitioner’s federal claim on the merits, a federal court has
no authority to issue the writ of habeas corpus unless the [state] [c]ourt’s decision ‘was contrary
to, or involved an unreasonable application of, clearly established Federal Law, as determined by
the Supreme Court of the United States,’ or ‘was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.’” Parker v. Matthews, 567
U.S. 37, 40 (2012) (quoting 28 U.S.C. § 2254(d)). The petitioner carries the burden of proof, and
review under § 2254(d) is limited to the record that was before the state court that adjudicated the
claim on the merits. See Harrington v. Richter, 562 U.S. 86, 98, 100 (2011). With regard to §
2254(d)(1), a federal court must confine its examination to evidence in the record. See

4

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page b of-50 PagelD: 3138

Pinholster, 563 U.S. 170, 180-81 (2011).
“[C]learly established law for purposes of § 2254(d)(1) includes only the holdings, as
opposed to-the dicta, of [the Supreme Court’s] decisions,” as of the time of the relevant state-court
decision. White v. Woodall, 134 S. Ct. 1697, 1702 (2014) (quoting Williams v. Taylor, 529 U.S.
362, 412 (2000)). A decision is “contrary to” a Supreme Court holding within § 2254(d)(1) if the
state court “contradicts the governing law set forth in [the Supreme Court’s], cases” or if it
“confronts a set of facts that are materially indistinguishable from a decision of th[e Supreme]
Court and nevertheless arrives at a [different] result.” Williams, 529 U.S. at 405-06. Under the
“‘unreasonable application’ clause of § 2254(d)(1), a federal habeas court may grant the writ if the
state court identifies the correct governing legal principle from th[e Supreme] Court’s decisions
but unreasonably applies that principle to the facts of the prisoner’s case.” Id. at 413.
Where-a-petitioner seeks habeas relief, pursuant to § 2254(d)(2), on the basis of an
erroneous factual determination of the state court, two provisions of AEDPA apply. First,_AEDPA
provides that “a determination of a factual issue made by a State court shall be presumed to be
correct [and t]he applicant shall have the burden of rebutting the presumption of correctness by
clear and convincing evidence.” 28 U.S.C. § 2254(e)(1); Miller—El v. Dretke, 545 U.S. 231, 240
(2005). Second, AEDPA precludes habeas relief unless the adjudication of the claim “resulted in
a decision that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. § 2254(d)(2).
IV.

ANALYSIS
A.

Ground One: Warrantless Arrest In Violation Of The Fourth Amendment

Petitioner alleges that his warrantless arrest was “unlawful and illegal” in violation of the
Fourth Amendment of the United States and New Jersey Constitutions. (ECF No. 1-1 at 58

5

^Case 2:16-cv-06066-JMV Document 16 Filed-08/06/19 Page 6 of 50 Page!D: 3X39

(“Unlawful Arrest Claim”).) On December 30, 2004, Petitioner went to an office building on the
“borderline of Hackensack and Hasbrouck” and stole a four-door car. Three men whom Petitioner
knew as Kenny (Kenyatta Clarke), Junior, and Jermaine accompanied Petitioner. Brown, 2009 WL
2408568, at *7. Based on Clarke’s statements, police arrested three other individuals who
participated in the crimes. These individuals also gave incriminating statements to police,
including naming Petitioner as a participant. All of the men arrested implicated Petitioner in these
crimes. Id. at *7. On January 1, 2005, Hackensack police officers arrested Petitioner, based on the
arrestees’ statements. Armed with a sworn complaint, the police went to the apartment of Chastity
Connor (“Connor”), whom police believed to-be Petitioner’s girlfriend. Immediately after the
arresting officers knocked on the front door of Connor’s apartment, they heard a crash sound —
caused by Petitioner fleeing through a back window of the apartment, onto the roof of an adjacent
building. After a tense, twenty-minute standoff, Petitioner surrendered to the-police. Id.
While in custody, andlafter waiving his rights under Miranda v. Arizona, IMTJ.S. 436
(1966), Petitioner gave incriminating statements concerning his involvement in the various crimes.
Specifically, he admitted to stealing a Nissan and an Audi and to committing December 30, 2004
armed robberies of the Easy Shop in Garfield and the BP gas station in Hackensack. Id.
Arresting officer Detective Patrick Coffey testified at a March 7, 2006 motion to suppress
hearing Before the Honorable John A. Conte, J.S.C. He stated that he drafted and signed five
complaints against Petitioner on January 1, 2005. Id. at *13; ECF No. 1-27 at 9. Four complaints
listed his address as “406 Prospect”; the other listed his address as “45 Linden Street.” Petitioner
testified that his address was 406 Prospect Street. His girlfriend and her minor daughter lived at
45 Linden Street. Brown, 2009 WL 2408568, at *13. According to Detective Coffey, he “wasn’t a
hundred percent sure” where Petitioner lived when the Detective drafted the complaints, but he

6

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 7 of 50 PagelD: 3140

did not believe that Petitioner lived with Connor. Detective Coffey listed 45 Linden Street as
Petitioner’s address on one of the complaints because co-defendants had told Captain Frank
Lomia, who was Detective Coffey’s supervisor, that Petitioner was at Connor’s apartment.
During direct appeal, Petitioner argued that his “arrest was illegal because the arrest
warrants were not jurated until days after he was in fact arrested, and thus any statement he made
or evidence seized must also be suppressed.” Id. at * 11. The Appellate Division determined that
police did not lawfully arrest Petitioner “because the face of the warrant shows that it was issued
on January 3, 2005, two days after defendant’s actual arrest.” Brown, 2009 WL 2408568, at *13.
However, the court ruled that the unlawful arrest did not trigger automatic exclusion of seized
evidence or suppression of his statements. Id.
As to the physical evidence seized during Petitioner’s arrest, the Appellate Division found
ihatConnor had invited police into her apartment; she consented to a search after-Detective Coffey
expressed concern about weapons in the apartment; and police saw men-S clothing . .. items-that
they seized in plain view.” Id. at *15, *16. These circumstances rendered the evidence seized to
be “sufficiently attenuated from the taint of [the arrest’s] constitutional violation.” Id. As to
Petitioner’s post-arrest statements, the Appellate Division ruled they had “no connection to, and
are otherwise attenuated from[,] the unlawful arrest.” Based on the record, the interrogating
officers “scrupulously adhered to [Petitioner’s] rights under Miranda. Id. at *17.
Granting Petitioner’s petition for certification, the New Jersey Supreme Court affirmed and
modified the Appellate Division’s judgment. Brown, 14 A.3d 26. The Court ruled that (1) co­
defendants’ statements implicating Petitioner provided police with sufficient probable cause to
arrest him; (2) there was no seizure of any sort in Connor’s apartment; (3) by fleeing through a
window onto an adjacent roof and creating a standoff there, Petitioner transformed the situation

7

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 8 of-50 PagelD: 3141

from an intended arrest in a third party’s private apartment to the public arena. There, police could
arrest him without a warrant based on probable cause that he had committed armed robbery, and
(4) police had authority to arrest Petitioner without a warrant for resisting arrest. Brown, 14 A.3d
at 32-35 (“Brown’s constitutional rights were not violated by his lawful arrest”).
In Stone v. Powell, 428 U.S. 465 (1976), the UnitedStates Supreme Court held that “where
the State has provided an opportunity for full and fair litigation of a Fourth Amendment claim, a
state prisoner may not be granted federal habeas corpus relief on the ground that evidence obtained
in an unconstitutional search or seizure was introduced at his trial.” Id. at 495-96. As the Third
Circuit explained in Hubbards. Jeffes. 653 F.2d 99 (3d Cir. 1981), Slone stands for the proposition
that “when a state prisoner raises a Fourth Amendment violation in a habeas petition, a federal
court may not consider the merits of the claim if the state tribunal had afforded the petitioner an.
opportunity for a fall and fair litigation’ of his claim.” Id. at 102-03 (citing Stum, 428.U.S. af494);
see also Marshall v. Hendricks, -307 F.3d 36, 82 (3d Cir, 2002) (“An erroneous or summary
resolution by a state court of a Fourth Amendment claim does not overcome the [Stone] bar”)
(citations omitted); Reininger v. Attorney Gen. ofNew Jersey, No. 14-5486,2018 WL 3617962, at
*9 (D.N.J. July 30, 2018). Within the Third Circuit, a petitioner can avoid the Stone bar only by
demonstrating that the state system contains a structural defect that prevented full and fair litigation
of the Fourth Amendment claim.” Marshall, 307 F.3d at 82.
Here, Petitioner availed himself of that opportunity for a full and fair litigation of his
Unlawful Arrest Claim.

He moved to suppress the “physical evidence obtained from the

warrantless] search of Ms. Connor’s apartment.” (ECF No. 1 -29 at 7-8.) The trial court held two
days of evidentiary hearings on the matter, during which both Petitioner and police testified. (ECF
Nos. 1-27 and 1-28.) The trial court denied the suppression motion. (ECF No. 1-29 at 9.)
\

8

\
\

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 9 of 50 PagelD: 3142

Petitioner again presented his Unlawful Arrest Claim on direct appeal. Brown, 2009 WL 2408568,
at *11. The New Jersey Supreme Court rejected it. Brown, 14 A.3d at 32-35 (determining that
Petitioner’s warrantless arrest was lawful and supported by sufficient probable cause).
The Court concludes that the New Jersey courts provided Petitioner with an adequate forum
to present his Unlawful Arrest Claim. He had a full and fair opportunity to litigate his Unlawful
Arrest Claim in the state courts. He has failed to demonstrate any structural defect in the state
courts’ review of that claim. In accordance with Stone and its progeny, this Court may not consider
the Unlawful Arrest Claim. See Gilmore v. Marks, 799 F.2d 51, 57 (3d Cir. 1986); Hubbard, 653
F.2d at 103. The Court will deny Ground One as barred by Stone.
Even if Stone did not apply, Ground One- lacks merit. The Constitution prohibits -the
government from conducting “unreasonable searches” of “persons, houses, papers, and effects,!!
U.S. Coast, amend. IV. “The general rule in a criminal proceeding is that statements and other
evidence obtained as a result of an unlawful, warrantless arrest are suppressible if-the link between
the evidence and the unlawful conduct is not too attenuated.” INS v. Lopez-Mendoza, 468‘U.S.
1032,1040-41 (1984) (citing Wong Sun v. United States, 371 U.S. 471 (1963)). Whether a search
is “unreasonable” is usually determined by the warrant requirement. City ofLos Angeles v. Patel,
135 S.Ct. 2443, 2452 (2015) (quoting Arizona v. Gant, 556 U.S. 332, 338 (2009)). A warrantless
arrest by a law enforcement officer “is reasonable under the Fourth Amendment where there is
probable cause to believe that a criminal offense has been or is being committed.” Devenpeck v.
Alford, 543 U.S. 146, 152 (2004). See also Brown, 14 A.3d at 32-33 (“To search for the subject of
an arrest warrant in the home of a third party, the police must obtain a search warrant - absent
exigent circumstances or consent”) (internal citations omitted).
Under these clearly established federal law principles, it was not contrary to or an

9

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 10 of 50 Page ID-: 31,43

unreasonable application of U.S. Supreme Court precedent for the New Jersey Supreme Court to
find Petitioner’s arrest lawful. The New Jersey Supreme Court explained that police had probable
cause to arrest-Brown for his behavior in resisting arrest: (1) Brown’s flight “transformed the
situation from an arrest in a third party’s private apartment... to the public arena, where the police
could arrest him without a warrant based on probable cause that he had committed armed robbery.
Brown, 14 A.3d at 34; and (2) Brown’s standoff in police presence, “posing a risk to the officers
and the public[,j” provided “an alternative basis to arrest him ... without a warrant for resisting”
Id. See Kentucky v. King, 563 U.S. 452,459-60 (2011) (citations omitted).
For all of the foregoing reasons, Ground One of the Petition is denied in its entirety.
B.

Ground Two: Unconstitutional Failure To Suppress Petitioner’s Post-Arrest
Statements

Petitioner argues that the trial court should have suppressed -his post-arrest custodial
statements because police had no warrant to arrest him or to search Connor’s apartment. (ECFNo.
1-1 at 67-78.) He claims violation of his Fourth, Fifth, and Fourteenth Amendment rights. (Id.)
Following pre-trial evidentiary hearings on Petitioner’s suppression motion, Judge Conte rejected
the motion as to Petitioner’s post-arrest statements. (ECF No. 1-29 at 9.) The trial judge found the
statements admissible because sufficient probable cause existed to arrest Petitioner: co-defendants
statements implicated him, and Petitioner attempted to flee.Connor’s apartment. (Id. at 11.) The
trial court also determined that, given the “facts and the totality of circumstances,” Petitioner
knowingly and voluntarily waived his Miranda rights. (Id. at 12.)
To the extent Ground Two asserts that Petitioner’s inculpatory statements should have been
suppressed as fruits of his purportedly unlawful arrest (Petitioner’s “Poisonous Tree

10

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 11 of 50 PagelD: 3144

Contention”),3 such assertion is a quintessential^ Fourth Amendment argument. Stone again bars
such claim from habeas review. See Jones v. Superintendent of Rahway State Prison, 725 F.2d 40,
42 (3d Cir. 1984) (contention that defendant’s confession and all other evidence admitted at his
trial should have been suppressed as fruit of illegal arrest was not proper subject for consideration
by federal habeas corpus court under Stone). See also Jones v. Johnson, 171 F.3d 270 (5th Cir.
1999) (on federal habeas review, federal court could not reexamine petitioner’s Fourth
Amendment claim alleging that post-arrest statements should have been suppressed as “poisonous
fruit” of his illegal arrest, since state provided opportunity for full and fair litigation of petitioner’s
Fourth Amendment claim prior to trial and thus was barred by Stone).
The New Jersey courts provided Petitioner with an adequate forum to present Ground
Two’s-Poisonous Tree Contention. He argued this point in his motion to suppress.Judge Conte
considered ifrat-the evidentiary hearing and rejected it. (EGF- No. 1-29 at 9-11.) The New Jersey
Supreme Court determined that Petitioner’s^arrest was lawful and was supported by- sufficient
probable cause. Brown, 14 A.3d at 32-35. There was no Fourth Amendment violation in the first
instance to taint his post-arrest statements. Petitioner has not demonstrated any structural defect in
the state courts’ review of his Poisonous Tree Contention. See Marshall, 307 F.3d at 82. Pursuant
to Stone, this Court may not consider that Fourth Amendment argument in Ground Two. See
Gilmore, 799 F.2d at 57; Hubbard, 653 F.2d at 103
To the extent Ground. Two alleges violation of Petitioner’s Fifth and Fourteenth
Amendment due process rights as established in Miranda v. Arizona, 384 U.S. 436 (1966)
(Petitioner’s “Miranda Contention”), such assertion is without merit. Pursuant to the Fifth

3 Evidence obtained as a result of a Fourth Amendment violation ordinarily must be suppressed
as “fruit of the poisonous tree.” Wong Sun v. United States, 371 U.S. 471, 487-88 (1963).
IT

'Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 12 of 50 PagelD: 3145

Amendment to the United States Constitution, applicable to the States through the Fourteenth
Amendment, “[n]o person... shall be compelled in any criminal case to be a witness against himself
[.]” U.S. Const, amend. V; Malloy v. Hogan, 378 U.S. 1, 8 (1964). In Miranda v. Arizona, 384
U..S, 436 (1966), the Supreme Court of the United States held that
when an individual is taken into custody or otherwise deprived of
his freedom by the authorities ... and is subjected to questioning, the
privilege against self-incrimination is jeopardized. Procedural
safeguards must be employed to protect the privilege ... [He] must
be warned prior to any questioning that he has the right to remain
silent, that anything he says can be used against him in a court of
law, that he has the right to the presence of an attorney, and that if
he cannot afford an attorney one will be appointed for him prior to
any questioning if he so desires ... After such warnings have been
given, [he] may knowingly and intelligently waive these rights and
agree to answer questions or make a statement.
384 U.S. at 47=8-79 (footnote omitted).
When poirce question a suspect in custody without administering the required warnings,
Miranda dictates that the answers received be presumed compelled and that they be excludedirom
evidence in the State’s case in chief. See Oregon v. Elstad, 470 U.S. 298, 317 (1985). A confession
taken during a custodial interrogation without the provision of Miranda warnings violates the
privilege against self-incrimination. See Thompson v. Keohane, 516 U.S. 99 (1995). After such
warnings and opportunity, “the individual may knowingly and intelligently waive these rights and
agree to answer questions or make a statement.” Miranda, 384 U.S. at 479. A waiver may be made
orally or may be implied from a suspect’s conduct. See North Carolina v. Butler, 441 U.S. 369,
373 (1979); United States v. Cruz, 910 F.2d 1072,1080 (3d Cir. 1990), cert, denied, 498 U.S. 1039
(1991). The test for waiver is two-pronged: (1) the relinquishment of the right must have been
voluntary, “in the sense that it was the product of a free and deliberate choice rather than
intimidation, coercion, or deception”; and (2) the waiver “must have been made with a full

12

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 13 of 50 PagelD: 3146

awareness of both the nature of the right being abandoned and the consequences of the decision to
abandon it.” Moran v. Burbine, 475 U.S. 412, 421 (1986) (internal quotations marks and citations
omitted). See also Dickerson v. United States, 530 U.S. 428, 434 (2000) (internal citations
omitted); Reinert v. Larkins, 379 F.3d 76, 88 (3d Cir. 2004) (internal citations omitted).
At the suppression motion hearing, Judge Conte correctly acknowledged the court s
obligation to review the “totality of circumstances” surrounding Petitioner’s post-arrest
statements. (ECF No. 1-28 at 72). The court carefully scrutinized in great detail evidence of the
circumstances surrounding Petitioner’s post-arrest statements and whether he had waived his
Miranda rights - including “the events that occurred and the background, experience, and conduct
of the defendant.” See Reinert, 379 F.3d at 88. At great length, the trial court heard testimony
from four .police “Officers who were present at during Petitioner’s custodial statements. A brief
summary follows.
On the evening of his arrest, Petitioner spoke withGaptain Frank Lomia of the Hackensack
Police Department. He said Petitioner did not ask for a lawyer and did not refuse to speak with
police. (ECF No. 1-28 at 68.) Captain Lomia testified that “this [wa]s the second time [Petitioner]
was read his Miranda rights. [T]he Miranda form ... was read to [Petitioner] ... and [Petitioner]
... said yes to each of the questions and ... then [Petitioner] signed the form.” (Id.) Judge Conte
noted that the Miranda rights form advised Petitioner of his constitutional rights “in big black bold
letters.” (ECF No. 1-28 at 68.) Petitioner signed not only the Miranda form but also a statement,
of which Judge Conte noted:
[T]he Miranda rights form [has] a waiver at the bottom ... Of course
with defendant signing this[,] it flies in the face of his testimony
today.
[Exhibit] S-4 was a voluntary statement given by the defendant on
the computer ... [He] initialed each page and he signed the last page.

13

Case 2rl6-cv-06Q66-JMV Document 16 Filed 08/06/19 Page 14 of 50 PagelD: 3147

(ECF No. 1-28 at 68 (“He never asked for a lawyer and he was never threatened or coerced”).) See
also ECF No. 7-9 at 78-84 (Petitioner’s statement given to Hackensack Police Department).)
Later that same evening, Detective Peter Schwartz of the Englewood Police Department
interrogated Petitioner. Brown, 2009 WL 2408568, at *8. Police again advised Petitioner of his
Miranda rights. He again waived those rights in writing on the Miranda form. Petitioner then
“indicated that he understood and wished to speak.” (Id.) Detective Schwartz testified that
Petitioner appeared- “very calm” during the interrogation and his ^‘demeanor was very
cooperative.” Id. Petitioner admitted that he stole the Ford Escort and committed the December
29, 2004 armed-robberies of the River Edge BP gas station and the. Englewood Mobil gas station.
At the conclusion of the interrogation, Detective Schwartz asked Petitioner if he wanted to add to
his statement. Id. at *9. Petitioner replied: “Yes. I am sorry and I wasn’t trying to hurt nobody. I
was trying to-feed my family and I lost my job and I was going through a rough time.” Id. After
speaking to DetectiveCchwartz, Petitioner gave a statement confessing to stealing the Nissan and
Audi and to robbing the Easy Shop in Garfield. Id. at *10. As to this formal statement, Detective
Schwartz testified that Petitioner “gave answers to questions and he was given the opportunity to
make any changes on the form ... He never invoked Miranda and he was never threatened or
coerced.” (ECF No. 1-28 at 69.)
Petitioner also waived Miranda and made a post-arrest admission to Detective Edward
Gamto of the Garfield Police Department. Detective Gamto testified at the suppression hearing
that he “advised defendant of his Miranda rights before speaking to him ... Defendant signed the
[Miranda] waiver. He admitted his participation in the robbery ... He was offered pizza.” (Id.)
Finally, Petitioner waived Miranda and gave a post-arrest statement to Detective Jeffrey
Telep of the Lodi Police Department. Detective Telep testified as the suppression hearing that he

14

Case 2:16-ev-06066-JMV Document 16 Filed 08/06/19 Page 15 of 50 PagelD: 3148

advised Petitioner of his Miranda rights and that Petitioner signed the Miranda rights form.
Petitioner “ate pizza and soda prior to this statement. He was very cooperative. {Id. at 69-70.)
Petitioner signed a formal statement. (Id.) See also Brown, 2009 WL 2408568, at * 11 (‘ According
to Detective Telep, Petitioner was ‘very calm and cooperative,’ and he did not seem or say that he
was too tired or hungry to give a statement”).
In sharp contrast to this substantively consistent law enforcement testimony from four
different police departments, Petitioner (1) flatly denied having cognitive capacity the day of his
arrest, claiming that (a) he was feeling “woozy” after consuming a whole bottle of cognac and (b)
he had jumped out the apartment window because he “feared for Miss Connor and the baby (2)
claimed unawareness of his Miranda rights when he gave his statements; (3) testified that he had
repeatedly demanded counsel after his arrest; (4) suggested the involuntariness of his signed
statements; (5) denied-receiviag^any written or verbal Miranda warnings; (6)-alleged that police
.never asked him questions before preparing his formal statements; (7) claimed that police
presented him with a completed statement form for his signature, which he signed only “because
of fear that police would do something to [my] family”; and (7) claimed that police never offered
or provided him with food. (ECF No. 1-28 at 70-71.)
After receiving all the evidence, the state court noted the far-fetched nature of Petitioner’s
version of the underlying facts. Judge Conte was incredulous at Petitioner s contention that, despite
his five prior convictions, he had never before heard of Miranda. (ECF No. 1-28 at 72.) The Judge
noted the irresolvable inconsistencies among Petitioner’s post-arrest statements under oath that he
was involved in the robbery; his testimony that the words on his Miranda forms were not his, his

testimony that he never read his formal signed statements; and the evidence that police told
Petitioner to read every page of his statement and “if there’s any changes we’ll review them with

15

Case 2:16-cv-060.66-JMV Document 16 Filed 08/06/19 Page 16 of 50 PagelD: 3149

you.” (Id.)
Judge Conte commented on the implausibility of Petitioner’s version:
Defendant’s testimony today is totally incredulous. How could
anyone believe what he’s saying today? In order to believe
defendant then it would have to find the other four parties in this
case lied. They all lied deliberately to inculpate defendant. What
would they have to gain?
So the Court would have to find four parties lied. The Court would
have to find defendant committed perjury when he gave these
statements and he lied. The Court would have to find that when the
detectives questioned him and said what defendant said, they lied.
And what they wrote down was a lie and what defendant said in his
statements was a lie. Everybody lied before today. Everybody is a
liar and they all should be - if they swore under oath, prosecuted for
peijury for being liars.
(ECFNo. 1-28 at 72-73.)
Based on Petitioner’s lack of credibility and the persuasive-facts of record, Judge Conte
refused to credit Petitioner’s version of events:
He swore under-oath he was involved. Now today he says none of it
is true. That is the most incredulous story. Defendant has zero
credibility as a result of his testimony today. He committed peijury
today. His story is so far from reality, how could anybody in the
world sit and listen to these lies today? It is absolutely mindboggling that defendant would sit in court after he gave all of these
sworn statements to all these parties [and] say that he didn’t do it[,]
when all the other parties involved in the arrest said he was involved.
And for him to say, a man with over ten arrests and five convictions,
that he doesn’t know what Miranda is, oh please, how could
anybody sit in the courtroom and say that in America with that
background?
I don’t know if somebody is so naive or they’re trying to kid the
Court, fool with the Court or think everybody else is so dumb that
they would fall for such a story that has no truth to it.
(Id. at 71-74.)
In light of that record, Judge Conte made this factual finding: “[T]he bottom line is

16

Case~2:16-cv-06066-JMV Document 16 Filed 08/06/19 PaSel7^fS0Page,D

: 3150

absolutely he was given Miranda warnings. There is no question ... on th^^ ^ 5>
{Id. at 74.) Judge
Conte indicated that was “extremely satisfied that defendant was given Mira
warnings several
times oraiiy and in writing and that he signed that he was given Miranda
arnings.” {Id. at 73,
74.) The trial court denied Petitioner’s motion to suppress. {Id. at 74.)
On direct appeal, the Appellate Division rejected Petitioner’s clair^-^
that the trial court
should have suppressed his post-arrest statements as fruit of the poi ^
onous tree and as
independently tainted by multiple violations of Petitioner’s Miranda right;
- Brown, 2009 WL
2408568, at *16. Relying on both federal law and New Jersey cases apply- -;
it, the Appellate
Division was satisfied that police scrupulously honored Petitioner’s Miranda

lights - such that his

post-seizure statements were sufficiently attenuated from his arrest. Id. at * 1 ">

C citing Wong Sun v.

Umted~States, 371 U.S. 471,.486 (T963); Schneckloth v. Bustamonte, 412 U
218,226 (1973);
Miller v. Fenton, 796 F.2d 598,-603 (3d-Sir;), cert, denied, 479 U.S. 989 (198<S^.
State v. Galloway,
62-8-A:2d 735, 747 (N.J. 1993); State v. Worlock, 569 A.2d 1314,1327-(N:J. 1 Q
388 A.2d 218, 223 (N.J. 1978).) The New Jersey Supreme Court concli^

90); State v. Miller,

^ed that there was

“substantial, credible evidence in the record to support the [trial] court’s ft
voluntarily waived his rights” and that “[t]he statements he made while in

itding that Brown

Dontee custody were

therefore admissible at trial.” Brown, 14 A.3d at 35.
This Court must presume the state courts’ factual findings that P etiti

oner voluntarily

waived his Miranda rights and that he voluntarily chose to give statements to pQj.
ce.See 28 U.S.C.
§ 2254(e)(1). Petitioner has not rebutted these findings by clear and convincing
that they were unreasonable in light of the evidence in the record. See 28 Tj
Dickerson, 474 U.S. at 117 (“questions, such as the length and circumstances

evidence or shown
S.C. § 2254(d)(2);

°f thee interrogation,
i

the defendant’s prior experience with the legal process, and familiarity with the
lranda warnings,

17

Case 2:16-cv-06G66-JMV- DocumenL16 Filed 08/06/19 Page 18 of 50 PagelD: 3151

often require the resolution of conflicting testimony of police and defendant. The law is therefore
clear that state-court findings on such matters are conclusive on the habeas court if fairly supported
in the record”). The state courts! factual findings are also well supported by the evidence of record.
Four police officers testified that they advised Petitioner of his Miranda rights multiple times, that
he was cooperative”and calm during interrogation, and that he repeatedly waived his Miranda
rights. Petitioner claimed otherwise, but Judge Conte found him not credible. Petitioner has
presented nothing to this Court to overcome the presumption that the state courts’ factual findings
were correct.
In addition, after careful review of the very detailed and well-documented record, the trial
court’s suppression motion ruling {see ECF No. 1-28 at 65-74), and the New Jersey Supreme
Court’s determination (see-Brown, 14 A.3d at 35), this Court cannot conclude that the state court
decisions-were objectively unreasonable. Judge Conte considered the factors bearing on Miranda
waiver. Re made extremely detailed factual findings to support his decision that Petitioner waived
his Miranda rights. The state court reasonably found that-Petitioner gave his statements freely and
with an understanding of his rights. “Where the prosecution shows that a Miranda warning was
given and that it was understood by the accused, an accused’s uncoerced statement establishes an
implied waiver of the right to remain silent.” Berghuis v. Thompkins, 560 U.S. 370, 384 (2010).
With no evidence that Petitioner unambiguously invoked his right to remain silent, the
Appellate Division’s decision on the matter, too, is consistent with Miranda and its progeny. See
Berghuis, 560 U.S. at 381-82; see also Davis v. United States, 512 U.S. 452, 461-62 (1994) (“If
the suspect’s statement is not an unambiguous or unequivocal request for counsel, the officers have
no obligation to stop questioning him”). Both state courts reasonably found no such evidence of
unambiguous Miranda invocation in this case. Instead, the record reflects that Petitioner received

18

Case 2:16-CV-06066-J M V Document 16 Filed 08/06/19 Page 19 of 50 PagelD: 3152

the required Miranda warnings on several occasions — from Detectives Coffey, Lomia, Schwartz,
Gamto, and Telep. (ECF No. 1-28 at 68-70.) He signed four Miranda rights forms. (Id.) He “never
asked for aiawyer.” (Id. at 68.) See also Colorado v. Connelly, 479 U.S. 157,164 (1986) (coercive
police activity is a necessary predicate to the finding that a confession is not “voluntary” within
the meaning of due process).
The state courts correctly applied the governing federal law and reasonably determined the
facts in reaching their decisions that Petitioner waived Miranda and gave his custodial statements
voluntarily and knowingly. Petitioner has failed to demonstrate that the state court opinions, when
evaluated objectively and on the merits, resulted in an outcome that cannot be reasonably justified.
Matteo -v. Superintendent, SCI Albion, 171 F.3d 877, 891 (3d Cir. 1999). The record reflects that
Petitioner received the required Miranda warnings several times, initialed the statements of his
rights, signed the form, and repeatedly.-waived his Miranda rights. It was not objectively
unreasonable for the New Jersey courts to find Petitioner’s post-arrest statements admissible.
Therefore, to the extent Ground Two alleges violation of Petitioner’s Fifth and Fourteenth
Amendment due process rights, Petitioner’s claim lacks merit and is denied.
C.

Ground Three: IAC By Trial Counsel

Petitioner argues that trial counsel rendered IAC by (1) “opening the door” during the
cross-examination of Lieutenant Novak to admission of co-defendants’ police statements
inculpating Petitioner (ECF No. 1-1 at 85-90 (“IAC Examination Claim”)); (2) not fully
investigating the case (id. at 91-94 (“IAC Investigation Claim”)); (3) performing deficiently in five
respects on the suppression motion (id. at 94-110 (“IAC Suppression Motion Claim”)); and (4)
ineffectively handling plea negotiations (“IAC Plea Claim”) (collectively, the “IAC Claims”). (Id.
at 111-115.)

19

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 20 of 50 PagelD: 3153

Petitioner raised the IAC Claims in his PCR petition. (ECF No. 7-11 at 55.) After correctly
setting forth the governing standard for IAC claims under Strickland v. Washington, 466 U.S. 668
(1984) and State v. Fritz, 519 A.2d 336 (N.J. 1987), the PCR judge rejected Petitioner’s arguments.
Judge Roma ruled that (1) counsel provided effective assistance throughout plea negotiations {id.
at 57-58); (2) counsel provided effective assistance in his examination of Lieutenant Novak {id. at
58-60); (3) Petitioner had not demonstrated prejudice as to counsel’s case investigation (id. at 6062); and (4) Petitioner failed to demonstrate prejudice as to counsel’s performance on the
suppression motion. {Id. at 62-63.) Petitioner raised the IAC Claims on appeal of PCR denial.
Brown, 2014 WL 88Q8913, at *2. The Appellate Division affirmed the PCR court’s rulings on the
IAC Claims-, ruling that Petitioner failed to meet both Strickland prongs with respect to trial
counsel./d. at *5.
-In Strickland v. Washington, 466 U.Sr-668 (1984), the Supreme Court set forth the standard
governing-claims of ineffective assistance of counsel. First, the defendant must show that counsel’s
performance was deficient. This requirement involves demonstrating that counsel made errors so
serious that he was not functioning as the “counsel” guaranteed by the Sixth Amendment. Id. at
687. Second, the defendant must show that he was prejudiced by the deficient performance. Id.
This requires showing that counsel’s errors deprived the defendant of a fair trial. Id. “With respect
to the sequence of the two prongs, the Strickland Court held that ‘a court need not determine
whether counsel’s performance was deficient before examining the prejudice suffered by the
defendant as a result of the alleged deficiencies.’” Rainey v. Varner, 603 F.3d 189, 201 (3d. Cir.
2010) (quoting Strickland, 466 U.S. at 697)).

Counsel’s performance is deficient if his

representation falls “below an objective standard of reasonableness” or outside of the “wide range
of professionally competent assistance.” Strickland, 466 U.S. at-690. In examining the question

20

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 21 of 50 PagelD: 3154

of deficiency, “[j Judicial scrutiny of counsel’s performance must be highly deferential.” Id. at 689.
In addition, judges must consider the facts of the case at the time of counsel’s conduct and must
make every effort to escape what the Strickland Court referred to as the “distorting effects of
hindsight.” Id. The petitioner bears the burden of showing that counsel’s challenged action was
not sound strategy. Kimmelman v. Morrison, All U.S. 365, 381 (1986). Furthermore, a defendant
must show a reasonable probability that, but for counsel’s errors, the result of the proceeding would
have been different. Id. at 694.
When assessing an ineffective assistance of counsel claim in the federal habeas context,
“[t]he pivotal question is whether the state court’s application of the Strickland standard was
^unreasonable,” which “is different from asking whether defense counsel’s performance fell below
Strickland's standard.” Grant v. Lockett, 709 F.3d 224, 232 (3d Cir. 2013) (quoting Harrington v.
Richter, 562U.S. 86, 101 (2011)). “A state courtmust be granted a deference and latitude that arenot in -oper-atien when the case involves [direct] review under the Strickland standard itself.” Id.
Federal habeas review of ineffective assistance of counsel claims is thus “doubly deferential.” Id.
(quoting Cullen, 131 S.Ct. at 1403). Federal habeas courts must “take a highly deferential look at
counsel’s performance” under Strickland, “through the deferential lens of § 2254(d).” Id. (internal
quotation marks and citations omitted).
As to the LAC Examination Claim, Petitioner alleges that trial counsel conducted an
examination of witness Lieutenant Frank Novak in a manner that opened the door to admission of
co-defendants’ statements inculpating Petitioner. (ECF No. 1-1 at 85.) Specifically, Petitioner
argues that “[ejssentially, the jury was told that ‘another person,’ who was not subject to crossexamination, told the police that [Petitioner] committed the robberies.” {Id.)

At the time

Lieutenant Novak testified, the jury was already aware Petitioner had confessed to committing the

21

Case 2:16-cv-0606'6-JMV Document 16 Filed 08/06/19 Page 22 of 50 PagelD: 3155

armed robberies at the convenience store in Garfield and the four gas stations in Lodi, River Edge,
Englewood, and Hackensack, and to stealing the three cars. However, Petitioner had not confessed
to the armed robbery ofthe catering truck in Teterboro. Brown, 2014 WL 8808913, at *3.
In an attempt to counter the impact of Petitioner’s confessions, defense counsel tried to
disparage the police investigation-and challenge the basis for.the criminal complaint issued against
Petitioner. On direct examination, Lieutenant Novak conceded that the victim did not identify
Petitioner as a perpetrator and that Petitioner did not confess to the crime. Id. Through Novak’s
direct examination, defense counsel established that (1) Petitioner never gave a statement or
confession regarding the Teterboro incident; (2) Mr. Toronto, the lunch truck victim, never
identified Petitioner as a perpetrator; (3) the December 31, 2004 arrest date listed in the complaint
was not the Hate of-Petitioner’s arrest; (4) Novak knew on January 2, 2005 that Petitioner was in
custody but didmot attempt to speak with him untiUanuary 10, 2005; and (5) Petitioner did not
admit that he said “Give me your money” during the Teterboro incident, as the complaint-charged.
(ECENo. 1-46 at 63; ECF No. 1-47 at 1-12.)
At the conclusion of Novak’s direct examination, the prosecutor argued that counsel had
opened the door for the State to ask Novak why he believed Petitioner had robbed the catering
truck, and to elicit testimony that co-defendant Winston Durant (“Durant”) had identified
Petitioner to police as the person with the gun during the Teterboro robbery. The court agreed with
the State. The judge ruled the prosecution could elicit testimony aimed at correcting the impression
left by Novak’s direct examination that police had no information to support the complaint Novak
signed. Brown, 2014 WL 8808913, at *3; ECF No. 1-47 at 12-16. The State then introduced
testimony on Novak’s cross-examination that Durant gave a statement to the Lieutenant, telling
him what happened in the Teterboro truck case. (ECF No. 1-47 at 21.) Based on Durant’s

22

Case 2:16-cv-060B6-jMV Document 16 Filed 08/06/19 Page 23 of 50 PagelD: 3156

statement, police charged Petitioner with the Teterboro crime. (Id.) Novak testified that, after
interviewing the two other Teterboro perpetrators, he charged Petitioner with robbing the lunch
track. Brown, 2014 WL 88089T3, at *3.
Following Novak’s testimony, Petitioner moved for a mistrial based on the State’s crossexamination, asserting that it violated Brutonv. United States, 391 U.S. 123 (1968) and petitioner’s
Sixth Amendment Confrontation rights. (ECF No. 1-47 at 33-34.)

The court denied the

application. The trial judge reasoned that defense counsel’s direct examination of Lieutenant
Novak, was “couched [] in.terms of you had no information . . . and left the jury with the distinct
impression that [Lt. Novak] had no information whatsoever [to] . . . draft[] these complaints. You
can’t have it both ways . .. you can’t ask the questions and then expect not to have some type of
examination within-these areas.” (Id. at 32-33.)
During the evidentiary hearing before the PCR-court, trial counsel said that his-defense
strategy had to-addressTTr. Brown’s confession. (ECF No. 1-55 at 18.) Counsel said that ‘‘one of
the ways [to do that] was to show the manner in which the police handled the case” and to show
the police made mistakes. (Id.) Counsel denied that he had opened the door to testimony about co­
defendants’ statements. (ECF No. 1-55 at 17, 20.) In ruling on the PCR petition, Judge Roma
concluded that counsel’s action was a “strategic decision.” (ECF No. 7-11 at 59 (relying on State
v. Buonadonna, 583 A.2d 747, 757 (N.J. 1991) to support the PCR court’s conclusion under
Strickland/Fritz).)
Affirming rejection of the IAC Examination Claim, the Appellate Division agreed with the
PCR court that trial counsel provided effective assistance on Novak’s direct examination. Given
jurors’ awareness that Petitioner had confessed to the other crimes, defense counsel “had no
alternative but to challenge the thoroughness of the police’s investigation and attempt to discredit

23

Case 2:16-CV-06066-J'MV Document 16 Filed 08/06/19 Page 24 of 50 PagelD: 3157

any evidence produced by the police, which included [Petitioner]’s confessions.” Brown, 2014 WL
8808913, at *4. The Appellate Division found as follows:
Clearly, counsel’s direct examination- [of Lieutenant Novak] was
part of a strategy designed to minimize the damaging impact of
defendant’s confessions. If the defense attorney had not made this
effort than defendant had no chance of being acquitted of the crimes
to which he had confessed. The risk counsel took was reasonable,
especially in light of the fact that defendant’s sentence on the
robbery of the catering truck is- running concurrently to other terms.
The strategy the defense attorney employed was hardly one that
‘“thwarted the fundamental guarantee of [a] fair trial.’”
Brown, 2014 WL 8808913, at *4 (citing State v. Castagna, 901 A.2d 363, 375 (N.J. 2006)).
Given the deferential standard applied to the state courts’ Strickland determination, the
Court concludes that the Appellate Division’s decision on the IAC Examination Claim was not
contrary to or an unreasonable application of Strickland and its progeny. The Appellate Division
was not obj ectively-unreasonable in concluding that “counsel’s direct examination was part of a
strategy designed to-minimize the damaging impact of [Petitioner]’s confessions.” Brown, 2009
WL 2408568, at *4.
Petitioner acknowledges that “the entire point of questioning Novak was to highlight ...
the [Teterboro] complaintf’s] errors,” but he suggests that the actual questions posed by counsel
in furtherance of that objective were defective. (ECF No. 1-1 at 88 (arguing that counsel’s
questions “raised the issue of what, if any,.information the complaint was based upon”).)
Petitioner, however, fails to give a reasonable analysis as to how the objective could have
otherwise been met.
In addition, to the extent Petitioner intends for Ground Three to implicate the Sixth
Amendment’s Confrontation Clause, his IAC Examination Claim still fails. In Bruton v. United
States, 391 U.S. 123 (1968), the United States Supreme Court held that a defendant’s right under

24

Casa2:16-cv-06066-JMV “Document 16 Filed 08/06/19 Page 25 of 50 PagelD: 3158

the Sixth Amendment’s Confrontation Clause was violated where a non-testifying co-defendant’s
hearsay confession inculpating the defendant as a participant in the crime was admitted into
evidence. Under Bruton, courts employ a two-step process to determine if admission of a co­
defendant’s hearsay statement violates the Confrontation Clause: (1) whether the contested
statement by an out-of-court declarant qualifies as “testimonial.”4 If not, admissibility is governed
solely- by the rules of evidence; and (2) whether the witness is unavailable and there was a prior
opportunity for cross-examination. United States v. Berrios, 676 F.3d 118, 127 (3d Cir. 2012);
United States v. Shavers, 693 F.3d 363, 395 (3d Cir. 2012) (“a witness’s statement implicates the
Confrontation Clause only if it is testimonial”) (citing Berrios, 676 F.3d at 126).
Novak..testified as follows:
Prosecutor: And you in fact interviewed Winston Durant, right?
Novak: Yes..
Prosecutor:-He told you everything that happened in connection
with your case, right?
Novak: Yes.
Prosecutor: Based upon what Winston Durant told you, in part, [is]
why you charged the defendant [Brown] with these crimes?
Novak: Based on Winston Durant and I believe Tony Parham also.
(ECF No. 1-47 at 20-21.) While Novak never indicated what Durant actually said, the
plain implication of the testimony is that Durant inculpated Petitioner. Nevertheless, the Court
agrees with the state court’s ruling that once the credibility of Novak’s investigation was raised by
Petitioner, the door was opened to other aspects of the officer’s investigation.

4 “Testimonial” statements are those made by “witnesses” who “bear testimony,” such as by
makingra “formal statement to government officers,” and are not statements made casually to
acquaintances. Crawford v. Washington, 541 U.S. 36, 51-52 (2004).
25

Case 2:16-CV-06066-JMV Document 16 Filed .08/06/19 Page 26 of 50 PagelD: 3159

For these reasons, Petitioner has not met his burden as to Strickland’s defective
performance prong for the IAC Examination Claim. It was objectively reasonable for the Appellate
Division to affirm the PCR court’s decision that counsel made -a tactical decision with Novak’s
examination. The state courts’ reasoning does not amount to an unreasonable application of the
Stricklandstendard. The "Court will therefore deny habeas relief as to the IAC Cross-Exam Claim.5
Turning to the IAC Investigation Claim, Petitioner alleges that trial counsel failed to
adequately investigate the case by (1) not locating and subpoenaing Easy Shop shooting witness
Francisco Chichel (“Chicel”) (ECF No. 1-1 at 91); (2) failing to obtain Chastity Connor’s phone
records (id. at 92-94); and (3) failing to interview “every police officer who was assigned to
[Petitioner’s] arrest .from the varying municipalities.” (Id. at 94) These three arguments
collectively comprise Petitioner’s IAC Investigation Claim.
Petitioner raised the IAC .Investigation Claim in his PCR petition. (ECF No. 7-11 at 55,
60.) Judge Roma ruled that Petitioner .failed to demonstrate the Strickland prejudice prong. (Id. at
61.) Specifically, the Judge determined that (1) “from the information deduced at the trial, it is
clear that trial counsel’s alleged errors [as to Chicel]6 would not have changed the outcome of the
case” (id. at 60-61); (2) there was no evidence that Petitioner made a call to Ms. Connor and, in

5 In addition, Petitioner’s sixteen-year sentence on the Teterboro incident runs concurrently with
the other counts against him. Brown, 2014 WL 8808913, at *3. Even without considering
Teterboro, Petitioner is still sentenced as to the Hackensack, Lodi, and Englewood crimes.
Petitioner has not adequately explained how he can meet Strickland’s prejudice requirement in
light of this fact. See Parkin v. United States, 565 F. App’x 149, 152 (3d Cir. 2014) (discussing
concurrent sentence doctrine); United States v. Cross, 308 F.3d 308, 315 (3d Cir. 2002)
(Strickland requires satisfaction of both the defective performance and prejudice prongs for an
IAC claim).
6 Judge Roma noted that trial counsel had, in fact, subpoenaed-Chicel, although the subpoena
was sent out late. (ECF No. 7-11 at 60 “[Counsel] was unable to locate the witness after multiple
attempts, including the use of detective agencies”).)
26

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 27 of 50 PagelD: 3160

any event, “proof of [a] phone call made does not prove the contents of the phone call” (id.); and
(3) Petitioner’s contention about other police officer witnesses was “mere[] speculation] [as to
what] additional interviews would have produced to assist [Petitioner.” (Id.) The Appellate
Division, “[a]fter carefully considering the record and the briefs,” found the IAC Investigation
Claim to be “without sufficient merit to warrant discussion in a written opinion.” The Court
"affirmed Judge Roma’s PCR decision. Brown, 2014 WL 8808913, at *5.
The Appellate Division’s affirmance of Judge Roma’s rejection of the IAC Investigation
Claim was not objectively unreasonable. As to Chicel, Petitioner alleges that Chicel would have
given the jury “an alternative description of the [Garfield robbery] shooter.” (ECF No. 1-1 at 91.)
However, evidence at trial showed that Chicel “was not an eyewitness to the [Garfield robbery]
crime itself,_was intoxicated at thedime-he first spoke with police, and failed to recall any part of
what he first reported"to-police during a second interview.” (ECF No. 7-11 at 60.) The record
suggests that Chicel would have-suffered from a lack of reliability as a witness, given his
intoxication and gaps in recollection. Thus, Judge Roma’s conclusion about the absence of
prejudice does not amount to an unreasonable application of the Strickland standard. Petitioner
has not demonstrated that Chicel would have given specific testimony that more likely than not
would have altered the outcome of the case. See Strickland, 466 U.S. at 693.
As to Connor, Petitioner alleges that Connor’s phone records would have corroborated his
claim that he called her after Captain Lomia threatened to phone the New Jersey Division of Youth
and Family Services (“DYFS”). Petitioner argues that Lomia threatened a DYFS call about Connor
and Petitioner’s baby if he did not speak with police. (ECF No. 1-1 at 92-94.) However, Petitioner
offers no basis for this Court to abandon its requisite deference to Judge Roma’s finding that
Petitioner had not shown Strickland prejudice. He provides no evidence, and the Court finds none

27

Case 2:16-cv-06066-JMV Document 16" Filed 08/G6/19 Page 28 of 50 PagelD: 3161

in the record after careful review, that Petitioner in fact called Connor and spoke to her about
Lomia’s alleged DYFS threat. Moreover, as Judge Roma observed, the phone records would not
reveal the substancenf any call with Connor.
As to interviewing police officers, Judge Roma’s rejection of the argument constituted a
reasonable application of Has, Strickland prejudice prong. Petitioner claims that “there would have
been a basis to contradict the testimony of the lead witness, Detective Coffey ... [i]f counsel would
have spoken with the ten officers.” (ECF No. 1-1 at 94.) However, Petitioner has not put forth
facts or arguments showing how the aforementioned officers’ testimony would have changed
trial’s outcome. See Palmer v. Hendricks, 592 F.3d 386, 393 (3d Cir. 2010) (“[A] court should be
reluctant to convene an evidentiary hearing to explore the claims of a petitioner whose pleadings
are-factually insufficient to suggest any-entitlement to habeas relief’).See also ECF No. 7-11 at
60-61 (“Petitioner provides no evidenceJhat any of the officers would provide any information
demonstrating a reasonable probabilitylhat-the outcome of the case would have been different”).)
Petitioner has demonstrated neither what the officers specifically would have testified nor a
reasonable probability that such testimony would have changed trial’s outcome. There is,
therefore, no basis whatsoever for this Court to conclude that but for counsel’s alleged errors as to
the ten officers, the case’s result would have differed. See Strickland, 466 U.S. at 694.
Next, as to the IAC Suppression Motion Claim, Petitioner argues that counsel erred on the
suppression motion by (a) not attacking the State’s failure to obtain a search warrant before
entering Connor’s home (ECF No. 1-1 at 94-96); (b) failing to argue that the police did not
“scrupulously honor [his] right to remain silent” (id. at 96-100); (c) failing to develop the argument
that the police lacked probable cause to arrest (id. at 100-08); (d) not attacking the police’s failure
to announce their intent to arrest him before he fled (id. at 108-09); and (e) not pursuing the

"28

Case 2:16-CV-06066-JMV Document 16 Filed 08/06/1-9 Page 29 of 50 PagelD: 3162

police’s alleged threat to contact the DYFS about removing Petitioner’s child from Connor’s
custody (id. at 109-10).
Petitioner raised the IAC Suppression Motion Claim’s in his PCR petition. (ECF No. 7-11
at 62.) Judge Roma rejected all five arguments, ruling that Petitioner had not demonstrated
Strickland prejudice.J/<7. at 62-63.) the Judge determined that counsel was not deficient under
Strickland as to the arguments concerning the search warrant, probable cause, or intent to arrest.
(Id.) Judge Roma determined that Petitioner had not demonstrated Strickland prejudice as to the
silence and DYFS assertions. (Id.) The Appellate Division, “[ajfter carefully considering the
record and the briefs,” found the IAC Suppression-Motion Claim to be “without sufficient merit
to warrant discussion in a written opinion.” The Court affirmed Judge Roma’s PCR decision.
Brown, 2014 WL £808913, at *5 (“We conclude defendant failed to meet both prongs of the
Strickland test”).
Under the-deferential-standard thai-appl-ies to state courts’ Strickland determinations, the
Court find that the Appellate Division’s affirmance of Judge Roma’s ruling was sound. The record
supports the objective reasonableness of Judge Roma’s rulings. Since Petitioner was inside a thirdparty home when police appeared, fled when police arrived, and was arrested on an adjoining
building’s roof, “the lack of a search warrant and any lack of probable cause to arrest the
[Petitioner at Connor’s residence are irrelevant to this case.” (ECF No. 7-11 at 62.) As the New
Jersey Supreme Court determined, police had probable cause to arrest Petitioner in those
circumstances. Brown, 14 A.3d at 34. Therefore, counsel cannot reasonably be faulted for not
challenging the police’s failure to announce their intent to arrest. Such an announcement stood
little, if any, chance of success - Petitioner was in the process of fleeing. Furthermore, Petitioner
fled the scene to an adjoining roof and had a twenty-minute police standoff. Counsel again cannot

29

Case 2:16-cv-06066-JMV Document 16 Filed -08/06/19 -Page 30 of 50 PagelD: 3163

not be faulted for not challenging failure to announce arrest. (See id. at 62-63 (citing State v.
Branch, 693 A.2d 1272 (N.J. Super. Ct. App. Div. 1997) for the principle that “police do not
always need to announce their intention to arrest, especially where the circumstances of the arrest
demonstrate that the defendant knew he was being arrested”).) Petitioner has not sustained his
habeas burden. He has not pointed to any opinion in the Strickland line of cases with'which Judge
Roma’s rulings were contrary or an unreasonable application regarding the search warrant,
probable cause, or intent to arrest arguments.
The record also supports the objective reasonableness of Judge Roma’s rulings as to
Petitioner’s silence and DYFS contentions. As to the silence argument, it was “mere speculation
on. [Petitioner’s part” that the officer accompanying Detective Coffey would "have corroborated
..-Petitioner’s-claim that police did not honor his, right to remain silent. (See id.JdX 63 (“Therefore,
the-[Petitioner failed to show that counsel’s failure to pursue the ... alleged [] assertion] [of]
Miranda rights would have changed the outcome’’).) Further on this point, the Court refers to its
discussion above regarding the weight, content, and credibility of law enforcement’s testimony in
the state record versus that of Petitioner as to his interrogation and Miranda rights. In light of that
testimonial evidence before the state court, Judge Roma’s assessment about the speculative nature
of Petitioner’s silence argument was not based on an unreasonable determination of the facts. In
fact, Judge Roma pointed out that “it would have harmed [Petitioner’s case had the detective
supported Detective Coffey’s testimony.” (Id.) Thus, Petitioner has not carried his Strickland
prejudice burden. He has not shown that “counsel’s failure to pursue [PJetitioner’s alleged[]
assertion] [of] his Miranda rights would [have] change[d] the outcome.” (Id.)
The DYFS argument is similarly based merely on Petitioner’s speculative contention about
what uncertain police testimony would or would not have shown. He has not demonstrated, much

30

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/1-9 Page 31 of 50 PagelD: 3164

less even argued, that police testimony about Lomia’s supposed DYFS threat would have not only
discredited Lomia’s version of events but also, more likely than not, altered trial’s outcome. The
trial court found that Petitioner’s suppression testimony, at-best, strained credulity. And the trial
court’s determination is fully supported by the record.
For all of these reasons, the state courts’ rulings rejecting the IAC Suppression Motion
Claim are neither contrary to-nor an unreasonable application of Strickland dead its progeny. Nor
have those rulings resulted in decisions based on unreasonable determinations of the facts in light
of the evidence presented in state court proceedings. The Court will therefore deny habeas relief
as-tothe IAC Suppression Motion Claim.
As to theIAC Plea Claim, Petitioner argues that trial counsel ineffectively handled plea
negotiations. He-claims counsel never explained ihat the State’s plea offers did not include an
extended-term. (ECFNo. 1-1 at 111-15.) The State initially offered aterm of approximately-twenty
years, subject to the No Early Release Act, N.J. Stat._Ann-. § 2C:43-7.2 (“NERA”), but later offered
a thirteen or fourteen-year term, also subject to NERA. Petitioner rejected all offers: "Brown, 2014
WL 8808913, at *4.
Petitioner asserted the IAC Plea Claim in his PCR petition. (ECF No. 7-11 at 55.) He
argued that he “received a more severe sentence at trial than he likely would have received by
pleading guilty.” {Id. at 57.) Counsel told the PCR court that Petitioner understood the sentencing
exposure if he entered a guilty plea. Specifically, counsel testified as follows:
Judge Conte asked [the prosecutor] on the record whether or not Mr.
Brown’s exposure included the possibility of a discretionary
extended term ... [The prosecutor] indicated to Judge Conte that Mr.
Brown was discretionary extended term ... Judge Conte asked Mr.
Brown if he understood what offer was out there. Mr. Brown said
he did. Judge Conte asked Mr. Brown if he was going to accept that
offer and Mr. Brown said he would not ... [Petitioner] understood
that he wouldn’t get more time than the recommendation of the

31

Case-2:16-CV-06066-JMV Document 16 Filed 08/06/19 Page 32 of 50 PagelD: 3165

State. I don’t know if it was even couched in terms of an extended
term. The time was fixed ... but whatever the [term of years was], it
wasn’t going to be any higher than that number. There was no
circumstance under which the judge could exceed that number ...
[W]e had very, very-specific discussions about the amount of time
that he was facing and the amount of time that was being offered in
the plea bargains ... [M]y discussion, at least, would be this is the
number that you would be facing ... [Extended term] might have
come up when the issue was raised” in court, either before Judge
Roma or Judge Conte, and when you put on the record what his prior
criminal history was, and you indicated that it was a discretionary
extended term, I might have explained that to him in the jail... [T]he
trial [in this case] was over six years ago. [My] testimony [is] to the
best of my recollection.
(ECF No. 1-55 at 4, 5-6, 8, 10-11, 13) (emphasis added). Counsel also emphasized that Petitioner
did not want_to plead to any of the offers made by the State. (Id. at 13.) Judge Roma found
counsel s testimony ‘highly credible,” determined that “[Petitioner was properly informed of all
plea offer,” and-ruled that Petitioner had therefore-not demonstrated Strickland defective
performance. (ECF No. 7-11 at 57-58.) Given that counsel informed Petitioner of the State’s plea
offer, Judge Roma also found Lqfler v. 'Cooper, 566'TJ.S. 156 (2012) inapplicable. See id. at 57
(citing Lqfler for the principle that “trial counsel must advise the defendant of plea offers from the
State under the Sixth Amendment”).
During appeal of PCR denial, the Appellate Division affirmed Judge Roma’s decision.
Brown, 2014 WL 8808913, at *5. The Court found that Judge Roma’s “findings are supported by
the testimony of a witness [the court] had the opportunity to see and hear.” Id. The PCR appellate
court expressly rejected Petitioner s contention that he was unaware that the court would not
impose an extended term if he entered a guilty plea. Id.
The state courts’ denial of Petitioner’s IAC Plea Claim was objectively reasonable.
Petitioner has not shown Strickland deficient performance - i. e., that counsel’s representation “fell
below-an objective standard of reasonableness” under the circumstances. See Jacobs, 395 F.3d at

32

Case 2:16-cv-06066-JMV Document 16 Filed 08/06719^ Pago 33 of 50 PagelD: 3166

102. The state court reasonably found credible trial counsel’s testimony that he did advise
Petitioner during plea negotiations about his extended term eligibility. The record supports that
finding. The-PCR hearing transcript indicates that trial counsel did inform Petitioner of the State’s
offers. Counsel testified before the PCR court:
I remember very clearly having the discussion with Mr. Brown
about what a 13 or 14 years .term would mean. And considering it
was NERA, I remember speaking to Mr. Brown and saying that if
he received 14 years, he’d be eligible for parole, I guess, in around
say, 12 years ... Aaid I told [him] that based on the jail credit and his
parole eligibility that he would be getting out ofjail, under that term,
if he was paroled, in about ten or 11 years. [He] rejected that plea
offer. [His] attitude was that a ten or 11—year sentence to him ... was
the same as a longer sentence or a life sentence. And he rejected the
plea offer... There wasn’t a single plea-that I ever had the impression
that he was considering.
(ECr No. 1-55 at 6, l3). See also ECF No. 7-11 at 57-58“(“[Defense counsel] stated that he advised
-the [Petitioner of all plea offers and discussed them with the petitioner. [He] additionally ...
explained the final plea offer to the [Petitioner and went to-trial only at [Petitioner’s] insistence.
Mr. Kittner is an experienced trial lawyer, who has handled many cases before this Court”). The
Appellate Division correctly deferred to Judge Roma’s “findings which are substantially
influenced by his opportunity to hear and see the witness[].” Brown, 2014 WL 8808913, at *5.
This Court has no basis to abandon its deference to such findings, particularly where the
record corroborates - independent of counsel’s testimony - those findings about Petitioner’s
knowledge of the plea offers. Such independent validation includes (1) the State’s notification to
the Court and Petitioner of its plea offer on the record at the September 29, 2005 status conference
(see ECF No. 7-11 at 58); (2) the State’s communication on the record at the December 5, 2005
pre-trial conference that the final plea offer was eighteen years’ incarceration (id.); (3) the Court’s
confirmation at the pre-trial hearing that the Petitioner understood NERA’s applicability and his

33

Case 2:16-cv-06066-JMV Document 16 Fiied 08/06/19 Page 34-of 50 PagelD: 3167

discretionary extended term exposure (id.); and (4) Petitioner’s acknowledgment in a January 5,
2006 letter to Judge Conte that Petitioner “must soon decide whether or not to accept the State[’]s
offer 18 or 16 years imprisonment with a NERA trial.” (Id.)
In the face of such independent corroboration of the plea communications to Petitioner, his
reliance on Lafler v. Cooper, 556 U.S. 156 (2012) does not alter this Court’s decision. (See ECF
No. 1-1 at 112.) In Lafler, the State conceded that counsel’s advice — that the prosecution would
be unable to establish intent to murder because the victim had been shot below the waist — was
constitutionally deficient performance. That is not the case here. Petitioner’s contention that
counsel “prevented [him] from making an informed decision about plea bargaining” (ECF No. 11 at 111) flies in the face of record evidence showing the contrary. Petitioner’s unsupported
assertions-give this Court no-reasonable basis to second-guess..Judge Roma’s determination that
he was -‘properly-informed of alkplea offers” (ECF No. 7-11 at 57), rendering Petitioner’s Lafler
argument irrelevant.
For these reasons, the Appellate Division’s affirmance of Judge Roma’s ruling was not air
unreasonable determination of the facts in light of the evidence presented in state court. Indeed, it
is the only logical conclusion from the record. Given that “it is clear that the [Petitioner was
aware of the plea offers and contemplated them” (ECF No. 7-11 at 58), Petitioner has not shown
that “counsel made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed
by the Sixth Amendment.” See Strickland, 466 U.S. at 687. The state courts did not unreasonably
apply the governing federal standard in deciding that Petitioner did not demonstrate Strickland
deficient performance. The Court will therefore deny habeas relief as to the IAC Plea Claim.
D.

Ground Four: IAC By Both Appellate Counsel

Mark Tabakman was Petitioner’s appellate counsel on direct appeal before the Appellate

34

Case 2:16-cv-Q6066-JMV Document 16 Filed 08/06/19 Page~35 of 50 PagelD: 3168

Division. See Brown, 2009 WL 2408568, at *3. Petitioner contends that Mr. Tabakman rendered
deficient performance by (1) not challenging the trial court’s ruling concerning Novak’s testimony
(ECF No. 1-1 at 116-18); (2) not challenging jury-selection via voir dire transcripts and arguments
about the jury’s racial composition (id. at 120); and (3) not challenging the denial of Petitioner’s
motion to sever counts of the indictment. (Id. at 120-23 (collectively, “Tabakman IAC Claim”).)
Jacqueline Turner was- Petitioner’s appellate counsel on direct appeal before the New
Jersey Supreme Court. (See ECF No. 1-1 at 21.) Petitioner claims that she rendered deficient
performance by (1) allowing the State to supplement the record to show probable cause for
Petitioner’s arrest.(ECF-No. 1-1 at 119); and (2) conceding that the police had probable cause to
arrest Petitioner. (Id. at 120.) (ECF No.. 1-1 at 119-20 (collectively, “Turner IAC Claim”).)
Petitioner raised the Tabakman IAC Claim in his PCR petition. (ECF No. 7-17 at 70-81;
ECF No.-7-l l at 55, -63-64.) Judge-Roma correctly acknowledged that the Strickland test “is used
to assess the performance^of appellate counsel” (see ECF No. 7-11 cur64 (citing State v. Morrison,
522 A.2d 473 (N.J. Super. Ct. App. Div. 1987)) and that “appellate counsel is not required to assert
every possible argument on appeal.” (Id. (relying on Jones v. Barnes, 463 U.S. 745, 754 (1983)).
Rejecting the Tabakman IAC Claim, the PCR court determined that Petitioner had not shown
Strickland deficient performance. (ECF No. 7-11 at 63-64 (“Appellate counsel is not required to
raise every non-frivolous issue that a defendant requests on appeal”) (citing State v. Gaither, 935
A.2d 782 (N.J. Super. Ct. App. Div. 2007).) The Appellate Division affirmed Judge Roma, finding
that Petitioner had also not shown Strickland prejudice. The Court summarily concluded that
Petitioner’s IAC arguments were “without sufficient merit to warrant written discussion.” Brown,
2014 WL 8808913, at *5.

35

Case 2:16-CV-0606.6-JMV Document 16 Filed 08/06/19 Page 36'of 50 PagelD: 3169

Ineffective assistance of appellate counsel is analyzed under the Strickland standard. See
Albrecht v. Horn, 485 F.3d 103, 137 (3d Cir. 2007) (quoting United States v. Mannino, 212 F.3d
835, 840 n.4 (3d Cir. 2000)). Under that test, this Court finds that the IAC claims against Mr.
Tabakman are without merit.
Under the deficient-performance-prong of Strickland, this Court presumes that Mr.
Tabakman’s choices were made in furtherance of a legal strategy. Mr. Tabakman made over one
dozen points on appeal, including a challenge to'the denial of the motion for a mistrial. {See ECF
No. 7-11 at 64; ECF No. 7-4 at 1-3; ECF No. 7-2 at 1-3; ECF No. 7-1 at 1-3.) Mr. Tabakman’s
ninety-seven-page appellate brief (ECF No; 7-1 at 1-107) strongly suggests appellate counsel’s
competent comprehension of his client’s case and pertinent law. Of particular-significance, he
could notchallenge on appeal any issue not preserved in the record~below,.such as a challenge to
the jury’s racial composition. Petitioner^ criticism of appellate counseT’s election not to raise the
ruling concerning Novak and-the defense’s .opening the door fails asrthe-Court has rejected the
same argument as to trial counsel’s performance.
At any rate, Petitioner has not shown Strickland prejudice - i.e., that it is reasonably
probable that the outcome of the case would have been different if Mr. Tabakman had, for example,
challenged the trial court’s ruling on Novak’s testimony. Given that Petitioner’s sixteen-year
sentence on the Teterboro incident runs concurrently with the other counts against him, Brown,
2014 WL 8808913, at *3, he faces the same sentence as to the Hackensack, Lodi, and Englewood
crimes - aside from the Teterboro crime. See Parkin v. United States, 565 F. App’x 149, 152 (3d
Cir. 2014) (discussing concurrent sentence doctrine). And as to the other offense, Petitioner
confessed.

36

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 37 of 50 PagelD: 3170

Petitioner has also not shown it reasonably probable that the case’s outcome would have
differed if Mr. Tabakman had challenged denial the severance motion. As Judge Conte noted at
the March 28, 2006 motion hearing, New Jersey Rule of Court 3:7-6 allows-two or more offenses
to be charged in the same indictment “if the offenses charged are of the same or similar character
or are based on the same actual transaction or on two or more acts _or transactions connected
together or constituting parts of a common scheme or plan.” (ECF No. 1-29 at 12-13.) New Jersey
Rule of Court 3:15-2 “vests a trial court with discretion to order separate trials, if joinder would
prejudice unfairly a defendant.” (Id. at 13.) This “decision whether to sever an indictment rests in
the sound discretion of the trial court,” who is to “balance the potential prejudice to defendant’s
due, process rights against the State’s interest injudicial efficiency.” (Id. at 14-(intemal citations
omitted).) Imperforming thafbalancing, Judge Conte found “insufficient reason to sever these,
trials because the crimes were common acts and ... the evidence goes directly to all the*parties
involved in one plan and scheme[.] [S]o therefbrerthere should-be no severance.” (Id. at 15.)
Absent an abuse of discretion, appellate courts defer to trial courts’ severance decisions. Id. at 14
(internal citations omitted)). The Court can find no error in the trial court’s decision.
In light of the foregoing considerations, this Court is unable to find fault with the state
courts rejections of the Tabakman IAC Claim. Those rulings were neither contrary to nor an
unreasonable application of Strickland and its progeny. Nor have those rulings resulted in
decisions based on unreasonable determinations of the facts in light of the evidence presented
during Petitioner’s state court proceedings.
Respondents suggest that Petitioner also raised the claims as to Turner in his PCR petition.
(But see ECF No. 7 at 34; ECF No. 7-10 at 44-46 (citing to Petitioner’s PCR assertion of the
Tabakman, not Turner, IAC Claim).) Respondents state that the Appellate Division summarily

37

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 38 of 50 PagelD: 3171

rejected the Turner arguments. (ECF No. 7 at 34.) However, the Appellate Division s opinion does
not refer, either generally or specifically, to the Turner claims.
The PCR trial court referred only to Tabakman in its opinion. See Brown, 2014 WL
8808913, at *5; ECF No. 7-11 at 63-64. This Court reasonably construes that opinion to indicate
that only the Tabakman claim was presented on PCR, See ECF No. 7-11 at 63-64.)
To the extent that Petitioner did not fairly present the Turner issue to all three levels of the
New Jersey state courts, the claim is unexhausted.7 This Court can nevertheless deny it on the
merits under 28 U.S.C. § 2254(b)(2). See Taylor v. Horn, 504 F.3d 416,427 (3d Cir. 2007) (“Here,
because we will deny alLof [petitioner’s] claims on the merits, we need not address exhaustion”);
Bronshtein v. Horn, 404 F.3d 700, 72S~(3d Cir. 2005) (“Under 28 U.S.C. § 2254(b)(2), we may
reject claims on the merits even though they were not properly exhausted, and we take that
approach here”). That is what the Court will do here.
The state~courts_reasonably could have-determined that Petitioner-Hailed to demonstrate
both Strickland prongs. First, Petitioner himself expressly advised the New Jersey Supreme Court
that he did not concede the police had probable cause to arrest him. See State v. Brown, 14 A.3d
26,29 n. 2 (N.J. 2011) (“[Djefense counsel conceded at oral argument that the police had probable

7 Under the AEDPA, this Court may not grant a writ of habeas corpus under 28 U.S.C. § 2254
unless the petitioner has exhausted the remedies available in the courts of the State or exhaustion
is excused under 28 U.S.C. § 2254(b)(1)(B). See Henderson v. Frank, 155 F.3d 159, 164 (3d Cir.
1998); Lambert v. Blackwell, 134 F.3d 506, 513 (3d Cir. 1997); Toulson v. Beyer, 987 F.2d 984
(3d Cir. 1993). To satisfy the exhaustion requirement, “state prisoners must give the state courts
one full opportunity to resolve any constitutional issues by invoking one complete round of the
State’s established appellate review process.” O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999).
The exhaustion doctrine therefore requires a petitioner challenging a New Jersey conviction
under § 2254 to have fairly presented each federal ground that is raised in the petition to all three
levels of the New Jersey courts - that is, the Law Division, the Appellate Division, and the New
Jersey Supreme Court. See O'Sullivan, 526 U.S. 838; Rose v. Lundy, 455 U.S. 509 (1982).

38

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 39 of 50 PagelD: 3172

cause to arrest Brown. Brown has submitted a pro se letter stating that he does not concede that
issue, which we have considered”). In light of this fact, the state courts could have determined that
Petitioner failed to show Strickland deficient performance. Counsel did not remove Petitioner’s
probable cause position from judicial attention. Rather, the New Jersey Supreme Court was aware
that Petitioner did not wish to concede that issue.
In any event, the record amply supports the New Jersey Supreme Court’s determination
that police had sufficient probable cause to arrest Petitioner. The. Court based that probable cause
ruling on co-defendants’ statements inculpating Petitioner, on Petitioner’s flight from Connor’s
apartment, and on his creation of a post-flight standoff situation with police. Id. at 34. Thus, with
the cards stacked so heavily against Petitioner on the probable cause issue, tins Court cannot say
that Ms. Turner’s concession of that issue was unconstitutionally deficient. See Strickland, 466
U.S. at 687 (petitioners-must show “that counsel made errors so serious that counsel was not
functioning as the ‘counsel-’ guaranteed by the Sixth Amendment”). In the face of a-robust record
of probable cause for arrest, the state courts reasonably could have found that Ms. Turner’s
concession of the issue did not fall below an objective standard of reasonableness. See Jacobs, 395
F.3d at 102. See also Strickland, 466 U.S. at 689 (in scrutinizing counsel’s performance, courts
“must be highly deferential [and] must indulge a strong presumption that counsel’s conduct falls
within the wide range of reasonable professional assistance”). The New Jersey Supreme Court
could have found that Ms. Turner acted reasonably in conceding a weakness in Petitioner’s case,
in order to strategically focus appellate efforts on stronger arguments. Pressing the weak issue of
probable cause could have detracted from the strength of others in the defense’s case.
Second, the state courts reasonably could have determined that Petitioner failed to
demonstrate Strickland prejudice. Petitioner has not shown that Ms. Turner’s probable cause

39

J

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 40 of 50 PageJD: 3173

concession prejudiced his defense such that he was “deprive[d] of a fair trial whose result is
reliable.” See Strickland, 466 U.S. at 687. There is not a reasonable probability that the case’s
outcome for Petitioner would have been different, but for Ms. Turner’s concession. In the face of
the record support for probable cause to arrest, the New Jersey Supreme Court reasonably could
have determined that nothing counsel did could have prejudiced the case’s outcome. To the
contrary, the Supreme Court expressly found that probable cause did exist. Probable cause
-manifests from the facts of record -- not from Ms. Turner’ s concession. Nothing that counsel did
could have changed the overwhelming probable cause circumstances that Petitioner created.
Accordingly, the state courts’ rulings were neither contrary to nor an unreasonable application of
Strickland with respect to the Turner assertions.
The Court will therefore deny habeas relief as to the entirety of Ground Four.-:
E.

Ground Fiver Cruel And Unusual Punishment

Petitioner argues that-his sentence amounts to cruel and unusual punishment in violation
of the Eighth Amendment of the federal Constitution. (ECF No. 1-1 at 123-33 (“Eighth
Amendment Claim”).) On September 26, 2006, the trial judge sentenced Petitioner, in the
aggregate, to life imprisonment, with ninety-three years, eight months and 106 days of parole
ineligibility. Brown, 2014 WL 8808913, at * 1. On direct appeal, the Appellate Division on August
7, 2009 reversed the convictions related to the unlawful possession of a rifle; the Court affirmed
all other convictions. Id. The Appellate Division also vacated the sentence imposed on two seconddegree robbery convictions because the length of these sentences was greater than that permitted
under New Jersey Stat. Ann. § 2C:43-6(a)(2); and the sentencing judge failed to make sufficient
findings in support of aggravating and mitigating factors. (Id.) The New Jersey Supreme Court
affirmed and modified the judgment, remanding the matter for resentencing. Brown, 2014 WL

40

Case 2:16-CV-06066-JMV Document 16 Filed 08/06/19 Rage 41 of 50 PagelD: 3174

8808913, at * 1; Brown, 14 A.3d at 35. On September 9,2011, the trial court re-sentenced Petitioner
to the same aggregate term. Id.; ECF No. 1-25. He was convicted of twenty-seven counts, facing
seventeen sentences for the crimes. (ECF No. 1-25 at 4.)
Petitioner raised the Eighth Amendment Claim in his PCR petition. (ECF No. 7-11 at 55.)
Judge Roma rejected the argument, explaining that: (1) Petitioner’s sentence was permissible
under New Jersey Stat. Ann. § 2C:44-3(a); (2) the re-sentencing court “carefully weighed'the
aggravating and mitigating factors” (id. at 64-65); (3) “the eight aggravating factors substantially
outweighed the sole mitigating factor” (id. at 65); and (4) consecutive sentence were appropriate
pursuant to factors in State v. Yarborough, 498 A.2d 1239 (1985). (ECF No. 7-11 at 65.) Affirming
Judge Roma, the Appellate Division was “not persuaded” by the Eighth Amendment Claim,
finding it without sufficient merit to warrant discussion. Brown, 2014 WL 8808913, at *1, *5.
This Court finds that Petitioner is not entitled to relief on the Eighth Amendment Claim.
A federal court’s ability to review-state sentences is limited to challenges.based upon “proscribed
federal grounds such as being cruel and unusual, racially or ethnically motivated, or enhanced by
indigencies.” See Grecco v. O ’Lone, 661, F. Supp. 408,415 (D.N.J. 1987) (citation omitted). Thus,
a challenge to state court discretion at sentencing is not reviewable in a federal habeas proceeding
unless the sentence violates a separate federal constitutional limitation. Butrim v. D’Hio, No. 144628,2018 WL 1522706, at *16 (D.N.J. Mar. 28,2018) (citing Pringle v. Court ofCommon Pleas,
744 F.2d 297, 300 (3d Cir. 1984)). See also 28 U.S.C. § 2254(a); Estelle v. McGuire, 502 U.S. 62,
67 (1991); Lewis v. Jeffers, 497 U.S. 764,780 (1990). A sentence that is within the limits imposed
by statute “is neither excessive nor cruel and unusual under the Eighth Amendment.” United States
v. Miknevich, 638 F.3d 178, 186 (3d Cir. 2011). That is the case here. Petitioner was sentenced
within statutorily prescribed limits.

41

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 42 of 50 PagelD: 3175

Under New Jersey law, the ordinary term of imprisonment for first-degree robbery - one
of Petitioner’s twenty-seven convictions - is between ten and twenty years. N.J. Stat. Ann. §§
2C: 15-1 (b) and 2C:43-6(a)(l). New Jersey law also mandates that robbery is subject to NERA,
under which a defendant must serve eighty-five percent of his sentence before being eligible for
parole. See N.J. Stat. Ann. §§ 2C:43-7.2(a), (d)(9). New Jersey Stat. Ann § 2C:44-3(a) provides,
in pertinent part as follows:
The court may, upon application of the prosecuting attorney,
sentence a person who has been convicted of a crime of the first,
second or third degree to an extended term of imprisonment if it
finds one or more of the grounds specified in subsection a., b., c., or
f. of this section. [...] a. The defendant has been convicted of a crime
of the first, second or third degree and is a persistent offender.
N.J. Stat. Ann. § 2C:44-3. If a defendant is found to be subject to an extended term on a first~degree crime, the New Jersey sentencing guidelines provide that the defendant may face up-to life
in prison. N.J. Stat. Ann. § 2C:43-7(a)(2).
In this case, the state court granted the State’s motion for an extended term under New
Jersey Stat. Ann § 2C:44-3(a) based on Petitioner’s persistent offender status. Brown, 2009 WL
2408568, at *19. On this basis, Petitioner faced a maximum sentence of life in prison. Thus, even
Petitioner’s sentence as to first degree robbery alone was within the appropriate statutory limits.
In other words, having been convicted of the first-degree offense of armed robbery and thus being
subject to an extended term, Petitioner faced extended term imprisonment between twenty years
and life, New Jersey Stat. Ann. § 2C:43—7(a)(2); and a presumptive term of fifty years. N.J.S.A. §
2C:44—1(f)(1).8 He also faced a parole ineligibility term between one-third and one-half of the

8 “Unless the preponderance of mitigating factors set forth in subsection b. weighs in favor of a
lower term within the-limits authorized, sentences imposed pursuant to paragraph (1) of
subsection a. of N.J. S. 2C:43-7 shall have a presumptive term of life imprisonment. Unless the
-preponderance of aggravating and mitigating factors set forth in subsections a. and b. weighs in
42

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 43Lof 50'PagelD: 3176

base term. N.J.S.A. § 2C:43-7c. But under NERA, New Jersey Stat. Ann. § 2C:43-7.2, these
terms carry parole ineligibility of 85% of the base extended term. Id. In other words, Petitioner’s
sentence was consistent with New Jersey state law.
Furthermore, courts have consistently rejected the argument that extended term sentencing
violates Eighth Amendment rights. The United States Supreme Court has previously held that
“the Eighth Amendment contains a ‘narrow proportionality principle,’ that ‘does not require strict
proportionality between crime and sentence’ but rather ‘forbids only extreme sentences that are
‘grossly disproportionate’ to the crime.’” Graham v. Florida, 560 U.S. 48, 59-60 (2010) (quoting
Harmelin v. Michigan, 501 U.S. 957, 997, 1000-01 (1991)).9 In Lockyer v. Andrade, 538 U.S. 63
(2003), the Supreme Court held that, “[t]he gross proportionality principle reserves a constitutional
violation only for the extraordinary case.” Lockyer, 538 U.S. at 77. “A court must consider three
proportionality factors when evaluating Eighth Amendment challenges: (1) the [offense’s] gravity
and the -[penalty’s] harshness; (2) the sentences imposed on other criminals in the same
jurisdiction; and (3) the sentences imposed for commission of the same crime in other
jurisdictions.” United States v. Burnett, 773 F.3d 122, 136 (3d Cir. 2014) (citing Solem v. Helm,
463 U.S. 277, 290-92 (1983)). “In conducting this analysis, a court grants substantial deference to
legislative decisions regarding punishments for crimes.” Id.
Here, the sentencing judge relied on State v. Yarbough, 498 A.2d 1239 (N.J. 1985), cert.

favor of a higher or lower term within the limits authorized, sentences imposed pursuant to
paragraph (2) of subsection a. of N.J.S. 2C:43-7 shall have a presumptive term of 50 years'
imprisonment[.]” New Jersey Stat. Ann. § 2C:44-1 (f)(1).
9 For example, the United States Supreme Court has upheld sentences of life in prison for a
defendant’s third nonviolent felony pursuant to Texas’ recidivist statute, Rummel v. Estelle, 445
U.S. 263 (1980); twenty-five years to life in prison for theft of golf clubs under California’s
Three Strikes sentencing scheme, Ewing v. California, 538 U.S. 11 (2003); and two consecutive
terms of twenty-five years to life in prison for two convictions for petty theft, also pursuant to
California’s Three Strikes law. Lockyer v. Andrade,. 538 U.S. 63 (2003).
43

Case 2:16-cv-06066-JMV Document 16 Fiied 08/06/19 Page 44 of 50 PagelD: 3177

denied, 475 U.S. 1014 (1986), which sets out factors for determining whether sentences should be
consecutive or concurrent. (ECF No. 1-25 at 3-4.) This Court cannot review whether the state
court applied the Yarbough factors correctly, see Estelle, 502 U.S. at 67-68, but for Eighth
Amendment purposes the Court notes that the Yarbough factors are an amalgamation of other
jurisdictions’ criteria for imposing consecutive or concurrent sentences. Yarbough, 498 A.2d at
-1245-48. Judge Roma found that “Yarbough factors #1 and #3 apply.”10 (ECF No. 1-25 at 4.)
Applying the constitutional proportionality principle’s first factor, this Court finds nothing in the
record to disturb the state court’s evaluation of offense gravity and penalty harshness.
Further, Petitioner’s sentence is consistent with sentences received by others convicted of
the same crime. See State v. Dudley, 2007 WL 209918, at*10 (N.J. Super. Ct. App. Div. Jan. 29,
2007)-(.upholding defendant’s extended term sentence of fifty years for first-degree robbery with
twenty-two-years of parole disqualification); State v. Washington, 2008 WL 1733661, at *8 (N.J.
Super. Ct. App. Div. Apr. 16, 2008) (affirming extended term sentence of fifty years on armed
robbery conviction, since the sentence was not manifestly excessive or unduly punitive).
For all of these reasons, this Court concludes that the state court ruling on Petitioner’s
sentencing was not contrary to, or an unreasonable application of, clearly established Eighth
Amendment federal jurisprudence. The state sentence was not unconstitutional, in light of the facts
on the record below. Petitioner is not entitled to relief on his Eighth Amendment Claim.
F.

Ground Six: Refusal To Allow Petitioner’s Use Of Earphones For Sidebar
Conferences

Petitioner argues that the trial court violated his Sixth Amendment and due process rights

10 See Yarbough, 498 A.2d at 1247-48 (“the crimes and their objectives were predominantly
independent of each other”; and “the crimes were committed at different times or separate
places, rather than being committed so closely in time and place as to indicate a single period of
aberrant behavior”).
44

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 45 of-50 PagelD: 3178

by not permitting him to listen to sidebars with in-court headphones. (ECF No. 1-1 at 133-34) At
trial, Petitioner participated injury selection sidebar conferences by remaining seated at counsel’s
table and listening to the discussions through an earpiece. Brown, 2009 WL 2408568, at * 19; ECF
No. 1-1 at 134. After jury selection, when the State began presenting evidence, he asked to
participate in sidebars by wearing that same earpiece. He argued that the same rationale that grants
a defendant a sidebar participation right during jury voir dire should apply during trial. Id. The
trial court disagreed. The judge stated that sidebar conferences during trial are “totally different”
from those during voir dire. The latter involve legal arguments, while the former implicate
observations that form jury challenges’ basis. The trial court thus found no authority to support
Petitioner’s request.-(M; ECF No. 1-34 at 29-30.)
Petitioner raised the sidebar claim on direct appeal. Brown, 2009 WL 2408568, at * 11. The
Appellate Division concluded that the trial court’s sidebar ruling did not amount to a basis to
reverse Petitioner’s convictions or conclude that trial produced an unjust result. Id.-at *19.
Petitioner next asserted the claim in his PCR application. (ECF No. 7-11 at 64.) Judge Roma
rejected the claim as procedurally barred under New Jersey Rule of Court 3:22-5," since “the
issues were addressed and the challenge was dismissed by the Appellate Division.” (Id.) On appeal
of PCR denial, the Appellate Division found the sidebar claim to be without sufficient merit to
warrant written discussion. Brown, 2014 WL 8808913, at *5.
This Court finds that the sidebar claim is without merit for the following reasons. The
Sixth Amendment allows a defendant to make significant tactical decisions regarding his own case

n « A prior adjudication upon the merits of any ground for relief is conclusive whether made in
the proceedings resulting in the conviction or in any post-conviction proceeding brought
pursuant to this rule or prior to the adoption thereof, or in any appeal taken from such
proceedings.” New Jersey Rule of Court 3:22-5.
45

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 46of 50 PagelD: 3179-

instead of being subjected against his will to counsel’s strategy. Faretta v. California, 422 U.S.
806 (1975); McKaskle v. Wiggins, 465 U.S. 168, 178 (1984). A defendant must have the
opportunity to “control the organization and content of his own defense, to make motions, to argue
points of law, to participate in voir dire, to question witnesses, and to address the court and the
jury at appropriate points in the trial.” Id. at 174.
“[Ujnder [New Jersey] Rule [of Court] 3:16, a defendant, who requests it, ordinarily has a
right of presence at voir dire sidebar conferences.” State v. W.A., 875 A.2d 882, 884 (2005).
However, “presence at sidebar need not always mean physical presence.” Id. at 891. Where there
are security issues that militate against a defendant’s physical presence at a voir dire sidebar, a
court may utilize other methods to ensure a defendant is able to meaningfully participate in voir
dire. Id. at 892. These methods may include the use of electronic equipment, such as wireless
listening devices. Id. at 883. A defendant’s exclusion from sidebar, after having requested
presence, and in the absence of a substituted process,-does not automatically warrant reversal. Id.
at 894. Rather, each case must be assessed under a harmless error analysis. Id.
The United States Supreme Court has not addressed whether a defendant’s exclusion from
sidebar conferences implicates the defendant’s constitutional rights. See United States v. Schwartz,
315 F. App’x 412, 416 n.l (3d Cir. 2009); Davenport v. Ricci, No. 09-4997, 2012 WL 2863662,
at *13 (D.N.J. July 11, 2012). Instead, relevant Supreme Court precedent makes clear that voir
dire “is conducted under the supervision of the court, and a great deal must, of necessity, be left to
its sound discretion.” Connors v. United States, 158 U.S. 408, 413 (1895); accord Robinson v.
Johnson, No. 15-8097, 2018 WL 2859672, at *14 (D.N.J. June 11, 2018). Furthermore,
“[exclusion from a single sidebar conference conducted outside the jury’s presence does not
automatically deny one the right to self-representation; rather, it must be viewed in the context of

46

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 47 of 50 PagelD: 3180

the trial as a whole.” United States v. Ottaviano, 738 F.3d 586, 598 (3d Cir. 2013) (internal
citations omitted). No United States Supreme Court decision has held that a trial court must permit
a criminal defendant to listen to trial sidebar conferences.
The record here suggests that other than the sidebar conferences he now challenges,
Petitioner was present Tor the entire trial. He was present in court and heard the arguments that
preceded and followed sidebars, as well as the trial court’s rulings on them. (See ECF Nos. 1-34 1-52.) Moreover, Petitioner was represented by counsel who participated in the sidebars and could
convey their content to him. (Id.) Given that he cannot point to any United States Supreme Court
precedent giving him a Sixth Amendment right to listen via headphones to post-voir dire sidebars,
Petitioner has not shown that the Appellate Division’s resolution of his sidebar claim was contrary
to clearly established federal law. 28 U.S.C. § 2254(d)(1).
Furthermore, Petitioner has not shown that his post-voir dire sidebar exclusion prejudiced
his defense. Indeed, he does not claim that such exclusion adversely influenced the jury’s verdict
(see ECF No. 1-1 at 134); this Court has not located any evidence in the record which suggests it
either. Petitioner does not complain about any particular position taken or conceded by counsel at
any specific sidebar conference. He also does not contend that any particular sidebar s result would
have differed if he had been allowed to participate. A writ of habeas corpus may issue only if the
reviewing court finds that a constitutional error “had a substantial and injurious effect or influence
in determining the jury’s verdict.” Brecht v. Abrahamson, 507 U.S. 619, 623 (1993); accord
Szuchon v. Lehman, 273 F.3d 299, 319 (3d Cir. 2001). “Petitioner has not shown that had counsel
included Petitioner at sidebar, there is a reasonable probability the outcome of the trial would have
been different.” See Robinson, 2018 WL 2859672, at *15.
In light of the foregoing, Petitioner is not entitled to relief on his sidebar claim.

47

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 48 of 50 PagelD: 3181

G.

Ground Seven: Cumulative Errors

Petitioner argues that the errors alleged in his § 2254 Petition “in the aggregate ... rendered
the trial and appellate process unfair.” (ECF No. 1-1 at 135) Petitioner raised the cumulative error
claim on direct appeal. Brown, 2009 WL 2408568, at *11; ECF No. 7-1 at 93. The Appellate
Division found it without sufficient merit to warrant written discussion. Brown, 2009 WL
2408568, at *12, *22. He also raised the claim in his PCR application. (ECF No. 7-17 at 87-88,)
Judge Conte found no merit to any of the PCR petition’s claims. (ECF No. 7-11 at 57-65.)
Petitioner did not raise the cumulative error claim in his appeal of PCR denial to the
Appellate Division or in his petition for certification to the New Jersey Supreme Court. (ECF No.
7-10 at 2-3; ECF No. 7-14 at 5; ECF No. 7-15 at 3.) Petitioner thus failed to exhaust the
Cumulative Error Clainrby not fairly presenting it to all three levels of the New Jersey state courts.
See O’Sullivan, 526.U.S.-aL838; 845); Rose, 455 U.S. 509; Henderson, 155-F.3d at 164; Lambert,
134 F.3d at 513; Toulson, 987 F.2d 984. A cumulative error-claim is a distinct claim that is subject
to the exhaustion and procedural default doctrines. Collins v. Sec ’y of Pennsylvania Dep’t of Corr.,
742 F.3d 528, 533, 541 (3d Cir. 2014). Nevertheless, this Court may, and will, deny this
unexhausted claim on the merits under 28 U.S.C. § 2254(b)(2). See Taylor, 504 F.3d at 427;
Bronshtein, 404 F.3d at 728 3d Cir. 2005).
“The cumulative error doctrine allows a petitioner to present a stand-alone claim asserting
the cumulative effect of errors at trial so undermined the verdict as to constitute a denial of his
constitutional right to due process.” Collins, 742 F.3d at 542. “Individual errors that do not entitle
a petitioner to relief may do so when combined, if cumulatively the prejudice resulting from them
undermined the fundamental fairness of his trial and denied him his constitutional right to due
process.” Id. (quoting Fahy v. Horn, 516 F.3d 1-69,205 (3d Cir. 2008)). The test for a “cumulative

48

Case 2:16-cv-06066-JMV Document 16 Filed 08/06/19 Page 49 of 50 PagelD: 3182

error” claim is whether the overall deficiencies “so infected the trial with unfairness as to make
the resulting conviction a denial of due process.” Muniz v. Powell, No. 13-178, 2015 WL 511618,
at-*15‘(D.N.J. Feb. 6, 2015) (citing Hein v. Sullivan, 601 F.3d 897, 917 (9th Cir. 2010) (relying
on Donnelly v. DeChristoforo, 416 U.S. 637, 643 (1974)); see also Fahy, 516 F.3d at 205
(“Cumulative errors are not harmless if they had a substantial and injurious effect or influence in
determining the jury’s verdict, which means that a habeas petitioner is not entitled to relief based
on cumulative errors unless he can establish ‘actual prejudice”’).
Both the Appellate Division on direct appeal and the PCR court adjudicated the cumulative
error claim, finding no merit to it. The Court agrees. Given that there is no merit to the § 2254
Petition’s claims for individual errors, Grounds One through Six cannot yield a cumulative error
claim in Ground Seven. In, short, there is no basis for habeas relief premised upon an alleged
accumulation of errors that daes-not exist. See, e.g., Muniz v. Powell, No. 13-178, 2015 WL
511618, at *15 (D.N.J. Feb. 6, 2015); Stewart v. United States,Flo. 12-346, 2014 WL 3573395, at
*12 (D.N.J. July 21, 2014).
For these reasons, Petitioner is not entitled to relief on his cumulative error claim.
V.

CERTIFICATE OF APPEALABILITY
A petitioner may not appeal from a final order in a habeas proceeding unless he has “made

a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c). “A petitioner
satisfies this standard by demonstrating that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude that the issues presented here
are adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322,
327 (2003). Because Petitioner has failed to satisfy this standard, the Court will deny him a
certificate of appealability.

49

t

•*

.♦

Case 2:16-cv-0606b-^iv,,

VI.

ent 16 Filed 08/06/19 Page 50 of 50 PagelD: 3183

CONCLUSION
The Petition is denied with prejudice since all of its claims are without merit. A certificate

of appealability shall not issue. An appropriate Order accompanies this Opinion.

s/ John Michael Vazquez
JOHN MICHAEL VAZQUEZ
U.S. District Judge

8/6/2019
Date

50'

Case: 19-3084-

Document: 24-1

Page: 1

Date Filed: 01/28/2020

January 23, 2020
DLD-096
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-3004
DANIEL TWIAN BROWN, Appellant
VS.
ADMINISTRATOR NEW JERSEY STATE PRISON, et ai.
(D.N.J. Civ. No. 1-16-CV-06066)
Present:

RESTREPO, PORTER, and NYGAARD, Circuit Judges
Submitted is Appellant’s application for a certificate of appealability
in the above-captioned case.
-Respectfully,

Clerk
._________________________ ORDER_______________________________
Appellant’s application for a certificate of appealability is denied. See 28 U.S.C.
§ 2253(c). Jurists of reason could not debate that the District Court correctly dismissed
his 28 U.S.C. § 2254 petition for essentially the reasons set forth in its opinion. See
Miller-El v. Cockrell. 537 U.S. 322, 327 (2003); Slack v. McDaniel 529 U.S. 473, 484
(2000).

By the Court,

s/ Richard L. Nygaard
Circuit Judge
Dated: January 28, 2020
Jonathan J. Sobel, Esq.
CJG/cc:
William P. Miller, Esq.
A True Copy: ° 't'js.uo'3

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu-o£Mandate

«

v-‘

*

Case: 19-3004

Document: 37

Page: 1

Date Filed: 07/27/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3004

,

DANIEL TWIAN BROWN,
Appellant
v.

ADMINISTRATOR NEW JERSEY STATE PRISON;
ATTORNEY GENERAL NEW JERSEY
(D.N.J. No. 2-16-cv-06066)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. MeKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE; RESTREPO,
BIBAS, PORTER, MATEY, PHJPPS, and NYGAARD.* Circuit Judges
The petition for rehearing filed by appellant in the-above-entitled case having been
submitted to the judges who participated in the decision of this Court and to alt the other
available circuit judges of the circuit in regular active-service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ Richard L. Nygaard
Circuit Judge
Dated: July 27, 2020
Lmr/cc: Jonathan J. Sobel
William P. Miller

* Pursuant to Third Circuit I.O.P. 9.5.3, Judge Richard L. Nygaard’s vote is limited to
panel rehearing.

